<html>
<title> - OPTIONS AND OPPORTUNITIES FOR ONSITE RENEWABLE ENERGY INTEGRATION</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]



 
                     OPTIONS AND OPPORTUNITIES FOR
                  ONSITE RENEWABLE ENERGY INTEGRATION
=======================================================================

                             FIELD HEARING

                               BEFORE THE

                  COMMITTEE ON SCIENCE AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                           NOVEMBER 15, 2010

                               __________

                           Serial No. 111-113

                               __________

     Printed for the use of the Committee on Science and Technology



[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


     Available via the World Wide Web: http://www.science.house.gov

                                 ______



                    U.S. GOVERNMENT PRINTING OFFICE
62-617 PDF                    WASHINGTON: 2010
___________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="a8cfd8c7e8cbdddbdcc0cdc4d886cbc7c586">[email&#160;protected]</a>  






                  COMMITTEE ON SCIENCE AND TECHNOLOGY

                 HON. BART GORDON, Tennessee, Chairman
JERRY F. COSTELLO, Illinois          RALPH M. HALL, Texas
EDDIE BERNICE JOHNSON, Texas         F. JAMES SENSENBRENNER JR., 
LYNN C. WOOLSEY, California              Wisconsin
DAVID WU, Oregon                     LAMAR S. SMITH, Texas
BRIAN BAIRD, Washington              DANA ROHRABACHER, California
BRAD MILLER, North Carolina          ROSCOE G. BARTLETT, Maryland
DANIEL LIPINSKI, Illinois            VERNON J. EHLERS, Michigan
GABRIELLE GIFFORDS, Arizona          FRANK D. LUCAS, Oklahoma
DONNA F. EDWARDS, Maryland           JUDY BIGGERT, Illinois
MARCIA L. FUDGE, Ohio                W. TODD AKIN, Missouri
BEN R. LUJAN, New Mexico             RANDY NEUGEBAUER, Texas
PAUL D. TONKO, New York              BOB INGLIS, South Carolina
STEVEN R. ROTHMAN, New Jersey        MICHAEL T. McCAUL, Texas
JIM MATHESON, Utah                   MARIO DIAZ-BALART, Florida
LINCOLN DAVIS, Tennessee             BRIAN P. BILBRAY, California
BEN CHANDLER, Kentucky               ADRIAN SMITH, Nebraska
RUSS CARNAHAN, Missouri              PAUL C. BROUN, Georgia
BARON P. HILL, Indiana               PETE OLSON, Texas
HARRY E. MITCHELL, Arizona
CHARLES A. WILSON, Ohio
KATHLEEN DAHLKEMPER, Pennsylvania
ALAN GRAYSON, Florida
SUZANNE M. KOSMAS, Florida
GARY C. PETERS, Michigan
JOHN GARAMENDI, California
VACANCY
                            C O N T E N T S

                           November 15, 2010

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Russ Carnahan, Acting Chairman, 
  Committee on Science and Technology, U.S. House of 
  Representatives................................................     7
    Written Statement............................................     8

Statement by Representative Judy Biggert, Acting Minority Ranking 
  Member, Committee on Science and Technology, U.S. House of 
  Representatives................................................     8
    Written Statement............................................    10

                               Witnesses:

Mr. Joseph Ostafi IV, Regional Leader, Science and Technology 
  Division, Group Vice President, HOK
    Oral Statement...............................................    11
    Written Statement............................................    13
    Biography....................................................    15

Mr. Michael Lopez, Director of Facility Operations, Bolingbrook 
  High School, Romeoville, Illinois
    Oral Statement...............................................    16
    Written Statement............................................    18
    Biography....................................................    20

Mr. Daniel Cheifetz, Chief Executive Officer, Indie Energy 
  Systems Company, LLC
    Oral Statement...............................................    21
    Written Statement............................................    22
    Biography....................................................    28

Dr. Jeffrey P. Chamberlain, Department Head, Electrochemical 
  Energy Storage Research, Energy Storage Initiative Leader, 
  Chemical Sciences and Engineering Division, Argonne National 
  Laboratory
    Oral Statement...............................................    28
    Written Statement............................................    31
    Biography....................................................    37

Ms. Martha G. VanGeem, Principal Engineer and Group Manager, 
  Building Science and Sustainability, CTL Group
    Oral Statement...............................................    37
    Written Statement............................................    39
    Biography....................................................    43

Discussion
  Economic Considerations and Job Creation.......................    44
  Technology Demonstration to Commercialization..................    45
  Public Education and Community Engagement......................    47
  Renewable-Ready Building Standard..............................    48
  Renewable-Ready Buildings......................................    50
  The Most Effective Measures Toward Efficient Schools...........    50
  Social-Behavioral Factors......................................    51
  Curtain Wall Systems and Exterior Glass........................    52
  Next Steps for Policy Makers...................................    54
  Geothermal Power and DOE Buildings Technology Program..........    55
  Vehicle and Stationary Battery Storage Programs at DOE.........    56
  Siting Energy Storage R&D in Federal Agencies..................    59
  Research Prioritization........................................    60
  Encouraging Market Development.................................    60
  American Competitiveness and Job Creation......................    63
  Closing........................................................    65


   OPTIONS AND OPPORTUNITIES FOR ONSITE RENEWABLE ENERGY INTEGRATION

                              ----------                              


                       MONDAY, NOVEMBER 15, 2010

                  House of Representatives,
                       Committee on Science and Technology,
                                                       Chicago, IL.

    The Committee met, pursuant to call, at 9:30 a.m., Dirksen 
Federal Courthouse, 219 S. Dearborn Street, Chicago, Illinois, 
Ceremonial Court Room 2525, Hon. Russ Carnahan presiding.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                         field hearing charter

                  COMMITTEE ON SCIENCE AND TECHNOLOGY

                     U.S. HOUSE OF REPRESENTATIVES

                     Options and Opportunities for

                  Onsite Renewable Energy Integration

                       monday, november 15, 2010
                9:30 a.m.-11 a.m. central standard time
                       dirksen federal courthouse
                         219 s. dearborn street
                           chicago, illinois
                       ceremonial court room 2525

Purpose

    On Monday, November 15, 2010 the House Committee on Science & 
Technology will hold a field hearing entitled ``Options and 
Opportunities for On-site Renewable Energy Integration.''
    The hearing will examine the integration of renewable energy 
systems in the built environment. Witnesses will discuss the state of 
the building industry and how federal research programs can help 
continue the industry's efforts to adopt renewable energy into their 
designs and practices. Opportunities for the adoption of simulation-
driven design, storage integration, and measurement and verification 
technologies will also be discussed. Furthermore, the hearing will 
consider research, development, and demonstration needs that are not 
currently being adequately addressed by the industry or the U.S. 
Department of Energy (DOE).

Witnesses

        <bullet>  Mr. Joseph Ostafi IV is the Regional Leader for the 
        Science and Technology Division and also Group Vice President 
        of HOK a global architectural firm that specializes in 
        planning, design, and delivery solutions for buildings and 
        communities. Mr. Ostafi will provide a broad overview of what 
        it means to integrate renewable energy into buildings and 
        discuss some technical issues which need additional research to 
        ease integration.

        <bullet>  Mr. Michael Lopez is the Director of Facility 
        Operations for Bolingbrook High School, the first Leadership in 
        Energy and Environmental Design (LEED) Certified School in 
        Illinois and the third high school in the United States. Mr. 
        Lopez will discuss the environmental and energy efficient 
        initiatives of the Valley View School District.

        <bullet>  Mr. Daniel Cheifetz is the Chief Executive Officer of 
        Indie Energy Systems Company, which is a global leader in smart 
        geothermal technology for heating and cooling both existing and 
        new buildings. Mr. Cheifetz will discuss the incorporation of 
        geothermal energy and related system integration technologies 
        into the built environment.

        <bullet>  Dr. Jeffrey P. Chamberlain is the Department Head for 
        Electrochemical Energy Storage and is also the Energy Storage 
        Major Initiative Leader of the Chemical Sciences and 
        Engineering Division at Argonne National Laboratory. Dr. 
        Chamberlain will discuss how research in vehicle storage 
        technologies relate to stationary storage technologies used in 
        buildings.

        <bullet>  Ms. Martha G. VanGeem, PE, Principal Engineer & Group 
        Manager of Building Science and Sustainability of CTL Group a 
        industry leader in engineering and scientific services. Ms. 
        VanGeem will discuss the role of industry and federal research 
        programs in developing technologies and standards to integrate 
        renewable energy into buildings.

Background

    In 2009 the Department of Energy (DOE) reported that buildings 
accounted for 80 percent (or $238 billion) of total U.S. electricity 
expenditures. From 1980 to 2006, total building energy consumption in 
the United States increased more than 46 percent, and is expected to 
continue to grow at a rate of more than 1 percent per year over the 
next two decades. Carbon emissions from buildings in the U.S. 
approximately equal the combined carbon emissions of Japan, France, and 
the United Kingdom. This is about 38 percent of the emissions emitted 
in the country. Tackling public concerns about the high costs of 
energy, the looming threat of global climate change, and the nation's 
economic wellbeing requires continual assessment of federal building 
technology programs.
    The importance of energy efficiency and sustainability in buildings 
has been recognized in various federal laws, executive orders, and 
other policy instruments in recent years. Among these are the energy 
policy acts (EPAct) of 1992 and 2005 (P.L. 102-486 and P.L. 109-58), 
the Energy Independence and Security Act of 2007 (EISA, P.L. 110-140), 
and the American Recovery and Reinvestment Act of 2009 (P.L. 111-5). 
Through these laws the DOE is authorized to carry out a range of 
activities to increase energy efficiency in a number of economic 
sectors.
    While these programs continue to demonstrate success in developing 
technologies and practices for high-performance buildings, advancing 
the state of technology far beyond what is currently available will 
require the programs to incorporate entirely new technologies and 
approaches into their R&D agendas.
    Steps to first reduce total energy consumption, and then to use the 
remaining energy more efficiently, have been and continue to be the 
country's first line of defense to reduce the cost of energy and to cut 
carbon emissions in the building sector. As the country has become more 
effective in using these techniques, new approaches to drastically 
reduce traditional energy consumption by integrating on-site renewable 
energy into the built environment have garnered more attention and have 
been incorporated into public law and into practice.
    Modern practices of using energy efficient technologies and 
addressing other environmental concerns have generally been termed 
``green building design.'' While the concept has existed for a long 
time, the practices did not really emerge until the 1990s. Since then 
terms such as ``green building,'' ``high-performance building,'' and 
``high-performance green building'' have been defined in public law, 
both by several different Federal agencies and by stakeholders in the 
building community. For example, a ``high-performance building'' is 
defined by EISA as a building that integrates and optimizes, on a life 
cycle basis, all major high performance attributes, including energy 
conservation, environment, safety, security, durability, accessibility, 
cost-benefit, productivity, sustainability, functionality and 
operational considerations. To move beyond energy efficiency and into 
integrating renewable energy into building design, new terms have been 
developed, such as ``net-zero energy,'' which also has been defined in 
many ways.

Net-Zero Energy

    In general, a net-zero energy building produces as much energy as 
it uses over the course of a year. Some building scientists intended 
for these buildings to have no net environmental impact or even a 
``minus-impact'' which would mean the building would provide a net 
environmental benefit. The National Renewable Energy Laboratory (NREL) 
has studied four different definitions including: net-zero site energy, 
net-zero source energy, net-zero energy costs, and net-zero energy 
emissions (Box.1). The diversity in these definitions illustrates that 
these are fairly new concepts still under discussion by the building 
community.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


Box.1 NREL Zero-Energy Buildings: Definitions.\1\
---------------------------------------------------------------------------
    \1\ Torcellini, P.; Pless, S.; Deru, M. (NREL); Crawley, D. (U.S. 
DOE). (2006). Zero Energy Buildings (ZEB): A Critical Look at the 
Definition. NREL/CP-550-39833. Golden, CO: National Renewable Energy 
Laboratory.

    DOE's Net-Zero Energy Commercial Building Initiative aims to 
realize marketable net-zero energy commercial buildings by 2025. The 
program brings architects, engineers, builders, contractors, owners, 
and occupants together to optimize building performance, comfort, and 
savings through a whole-building approach to design and construction. 
The program is divided into three interrelated strategic areas designed 
to overcome technical and market barriers: research and development, 
equipment standards and analysis, and technology validation and market 
introduction. Key research areas include: commercial lighting 
solutions; indoor environmental quality; building controls and 
diagnostics; and space conditioning. These types of research will help 
decrease the cost of integrating renewable energy in the built 
environment.
    Federal programs to deploy renewable technologies have helped 
owners incorporate renewable energy systems into their buildings. For 
example, financing the cost of a residential photovoltaic (PV) system 
through home equity loans, mortgage loans, or cash in combination with 
state and utility incentives has helped reduce the cost of systems. 
Nevertheless, right now not every owner is ready to make the necessary 
up-front financial investment in a renewable energy system.

Renewable Ready Buildings

    One concept which may help ease the adoption of renewable energy 
systems for building owners who are not ready to make the up-front 
investment is the idea of ``renewable ready'' buildings. As with many 
of the approaches in the green building sector, ``renewable ready'' is 
not well defined, but some builders are beginning to take this approach 
into consideration as they look toward ``greening'' their building 
designs. In general, this means that the construction of new buildings 
or renovations of buildings should be constructed ``ready'' for future 
renewable energy installations. Advocates of this approach believe that 
planning ahead for a renewable energy system maximizes the potential of 
that renewable energy source in the future.
    It is in the planning for a renewable energy system where there is 
a wide variety of elements that could be considered to make a building 
``renewable ready.'' The variety of elements is highly dependent on the 
kind of renewable energy system to be installed in the future. The 
design and element differences between making a building ready for 
solar panels versus a geothermal energy system may be very different.
    Moreover, there are building codes which may impede the ability to 
design and adopt renewable energy systems for buildings. For example, 
codes pertaining to roof heights and slopes could be barriers to the 
adoption of PV. In contrast, some building codes could also be used to 
encourage the adoption of ``renewable ready'' designs. For instance, in 
March of 2010 the American Society of Heating, Refrigerating and Air-
Conditioning Engineers (ASHRAE) released Standard 189.1--Standard for 
the Design of High-Performance, Green Buildings. This new standard 
includes a provision for ``renewable energy ready'' elements and is the 
first set of model codes and standards for green building in the U.S.
    Finally, another barrier to the adoption of ``renewable ready'' 
buildings is the siting of the building. For example, the orientation 
and location of a building's axes and surfaces, and the building's 
proximity to trees and other plantings, affect its heating and cooling 
requirements. Siting may also impact the ability to incorporate 
renewable energy generation on the building or on-site.

Community Planning

    Consequently, renewable energy experts including scientists at NREL 
have been working on ``net zero-energy communities'' which are defined 
as ``one that has greatly reduced energy needs through efficiency gains 
such that the balance of energy for vehicles, thermal, and electrical 
energy within the community is met by renewable energy.'' In some 
cases, planning a community where the renewable energy systems can be 
sited in a variety of ways may ease the adoption of renewable energy 
systems. For example, NREL has explored siting renewable energy system 
within the built environment (rooftop), on-site (parking structure, 
along roadways, etc.) or on unbuildable areas such as brownfield sites. 
This flexibility could also allow for the adoption of a variety of 
integrated renewable energy systems such as solar PV and a wood biomass 
boiler.

Systems Integration

    Even after building completion, systems are rarely optimized 
together to improve overall energy efficiency and environmental 
performance. A typical building is comprised of a complex array of 
components (wood, metals, glass, concrete, coatings, flooring, sheet 
rock, insulation, etc.) and subsystems (lighting, heating, ventilation 
and air conditioning, appliances, landscape maintenance, IT equipment, 
electrical grid connection, etc.), all of which are developed 
individually by independent firms that do not often design and test 
their performance in conjunction with other components and systems. 
Adding renewable energy generation as well as storage capacity to these 
systems is complicated, yet is already being done. But the 
inefficiencies attributable to this fragmentation of the building 
components and systems, and the lack of monitoring and verification of 
a building performance, point to a critical need for a more integrated 
approach to building design, operation, and technology development. An 
approach that couples buildings sciences, architecture, and information 
technologies could lead to entirely new buildings with subsystems that 
are able to continuously communicate with each other and respond to a 
range of factors including renewable energy generation. Wide-scale 
deployment of these types of net-zero energy high performance buildings 
may require federal programs to play a larger coordinating role in the 
development of the common technologies, codes, and standards.
    Mr. Carnahan. Good morning. I think we'll get started. Just 
by way of introduction, my name is Russ Carnahan. I am a Member 
of Congress from St. Louis, Missouri, and I serve on the 
Science and Technology Committee with my colleague, Mrs. 
Biggert, who's here in her hometown. So I'm glad to join her 
here this morning and, really, to kick off this field hearing 
on Options and Opportunities for Onsite Renewable Energy 
Integration. Thanks for joining us. I'd also like to thank the 
staff here at the Dirksen Federal Courthouse for hosting 
today's hearing.
    As many of you know, our nation's buildings have a 
surprisingly large environmental footprint, consuming about 70 
percent of all electricity off the grid, emitting almost 40 
percent of all carbon emissions, and using roughly 60 percent 
of all raw materials in the U.S. However, with these challenges 
also come, I believe, great opportunities.
    According to a recent U.S. Green Building Council report, 
greater building efficiency can be about 85 percent of our 
future U.S. demand for energy. And a national commitment to 
green building has the potential to generate two and-a-half 
million American jobs. These opportunities and a desire to 
bring a greater awareness to these issues are what led 
Congresswoman Biggert and I to found the Bipartisan High-
Performance Buildings Caucus in 2007. To date, the Caucus has 
over 30 Members of Congress and works with over 150 building 
trade associations, private companies, and design firms to 
heighten awareness and inform policymakers and their staffs 
about major impacts buildings have on our economy, our 
environment, our energy future, and companies' bottom line.
    I want to thank Congresswoman for her strong leadership and 
support over the past years on these issues that are so 
important to both of us, to Members on the Science Committee, 
on the High-Performance Buildings Caucus, but also to our 
constituents. I look forward to working with her and all of our 
other colleagues in the new Congress to continue these issues.
    As our nation continues on the road to recovery, we have a 
real opportunity to make lasting investments in our nation's 
future by rethinking our built environment and investing in 
high-performance buildings. In April of last year, this 
Committee held a hearing focused on building and industrial 
energy efficiency. This was a very informative hearing, and 
reconfirmed for everyone who attended energy efficiency is the 
number one priority when it comes to addressing our energy 
crisis. That being said, we're here today to talk about another 
vital part of the solution; integrating renewables into our 
built environment.
    As our witnesses will explain, we are already integrating 
renewables into our built environment, yet there are far too 
many barriers to integration that can be overcome through 
better technology. However, we cannot rely on improved 
technology alone to solve these problems. We must have a 
combination of technology, smart federal policy, and targeted 
investments for us to reach our goals. I look forward to 
hearing suggestions and ideas on what specific research and 
development needs exist to help overcome these barriers and 
what the federal government's proper role is in encouraging 
these activities in the private sector and academia.
    I also want to thank today's witnesses for taking time out 
of their busy schedules to be here to join us today, this week 
in Chicago, during the big GreenBuild Conference going on. I 
look forward to seeing that successful conference, and you know 
we have a big delegation from St. Louis here, from my home 
city.
    [The prepared statement of Chairman Carnahan follows:]
              Prepared Statement of Chairman Russ Carnahan
    Thank you all for joining us at today's hearing on ``Options and 
Opportunities for Onsite Renewable Energy Integration.'' I would also 
like to thank the staff of the Dirksen Federal Courthouse for hosting 
today's hearing.
    As many of you know, our nation's buildings have a surprisingly 
large environmental footprint consuming 70 percent of all electricity 
off the grid, emitting almost 40 percent of all carbon emissions and 
using roughly 60 percent of all raw material in the U.S. However, with 
these challenges also comes great opportunity. According to a recent 
U.S. Green Building Council report, greater building efficiency can 
meet 85% of future U.S. demand for energy, and a national commitment to 
green building has the potential to generate 2.5 million American jobs.
    These opportunities and a desire to bring greater awareness to 
these issues led Congresswoman Biggert and I to found the bipartisan 
High-Performance Buildings Caucus in 2007. The Caucus has over 30 
Members of Congress and works with over 150 building trade 
associations, private companies and design firms to heighten awareness 
and inform policymakers about the major impact buildings have on our 
economy, the environment and our energy future.
    I want to thank the Congresswoman for her strong leadership and 
support over the past years on these issues that are so important to 
the both of us and I look forward to continuing our efforts here today 
and in the future.
    As our nation and continues on the road to recovery we have a real 
opportunity to make lasting investments in our nation's future by 
rethinking our built environment and investing in high-performance 
buildings.
    In April of last year, this Committee held a hearing focused on 
building and industrial energy efficiency. This was a very informative 
hearing and re-confirmed for everyone who attended that energy 
efficiency is the number one priority when it comes to addressing our 
energy crisis. That being said, we are here today to talk about another 
part of the solution: integrating renewables into out built 
environment.
    As our witnesses will explain, we are already integrating 
renewables into the built environment. Yet, there are many barriers to 
integration that can be overcome through better technology. However, we 
cannot rely on improved technology alone to solve these problems--we 
must have a combination of technology, smart federal policy and 
targeted investments for us to reach our goals. I look forward to 
hearing suggestions on what specific research and development needs 
exist to help overcome these barriers and what the federal government 
can do to better encourage these activities.
    I want to thank today's witnesses for taking time out of their busy 
schedules to join us here today and I look forward to hearing how we 
can best proceed in these endeavors.

    Mr. Carnahan. And I want to recognize Congresswoman Biggert 
now for five minutes for her opening statement.
    Mrs. Biggert. Thank you, Mr. Chairman, and welcome to all 
of our witnesses. We appreciate your efforts to be here and 
participate in today's important hearing. I am also 
particularly pleased that my good friend and colleague, Russ 
Carnahan, was able to be here today to chair this hearing and 
kick off the festivities for the U.S. Green Building Council's 
annual international conference expo. As Congressman Carnahan 
just mentioned, we have the distinct honor of leading, I think, 
the most exciting Caucus in the House of Representatives.
    Officially known as the High-Performance Building Caucus, 
we have hosted over 50 lunch meetings in the last two years on 
every subject important to the definition of a high-performance 
building. So, today's hearing isn't just a twist in our usual 
Caucus collaborations, but it is just a way to--another way to 
take our show on the road and raise awareness for the 
importance of high-performance buildings, and nowhere is the 
concept of high-performance buildings more important and more 
evident than right here in my own backyard. I don't live right 
in Chicago, but I'm part of the metropolitan suburban area.
    But Chicago is the home to many high-performing building 
firsts, like the Chicago Center For Green Technology, the first 
rehabilitated municipal building in the nation to achieve the 
LEED platinum status. And, in 2007, the Exelon Headquarters and 
Chase Tower became the largest office space to earn the LEED 
platinum rating for commercial integrators. Another great 
example, and one that you will soon hear more about, is 
Bolingbrook High School, located in the suburban district. 
Bolingbrook High School is among the first of new construction 
LEED-certified high schools in the nation.
    So, what do these building project examples have in common, 
and how is renewable energy integration important to them? 
Well, these building projects have been constructed with a 
comprehensive building efficiency program. Once in place, an 
efficiency program can help reduce energy demand and the need 
for new energy capacity over the life of the project, improve 
building efficiency, begin coordinating design and construction 
to accommodate changes in technology and building function.
    As the demand for electricity, costs, and materials rise 
over the next two decades, the building projects I previously 
mentioned have the foundation in place to utilize existing 
renewable technologies or incorporate technologies that have 
yet to be deployed. Such an advantage can save homeowners, 
building managers, or school districts precious time and 
resources. The existing applications of renewable technology, 
LEED-certified buildings are already paying off. Some case 
studies show solar panels with geothermal heating systems will 
lead to a 15 to 20 percent savings in energy costs with payback 
occurring two to five years earlier than anticipated.
    So the long-term renewable technology options, however, 
hold great promise, but need more work. An energy storage 
solution, such as solar thermal heating or on and off-site 
stationary batteries can offer a significant savings for both 
the end users and generation of electricity. So this technology 
has been demonstrated in limited amounts that need more 
development before deployment on any broad scale.
    While successful at policy, some renewable technologies 
still encounter other challenges that prevent more widespread 
implementation. State laws or outdated local statutes have not 
been updated to accommodate neighborhood planning or renewable 
energy site planning. So, in order to enjoy the fruits of 
renewable energy integration, we need to cultivate a culture of 
adoption for those technologies. So we're going to have some 
really interesting testimony today.
    And, with that, I want to thank you all for being here this 
morning, and look forward to your testimony, to working with 
you to advance renewable energy integration in buildings when 
Congress returns to the energy issues in the coming year. I 
again thank the Chairman for being here and for all his work on 
the Caucus, for all that has been accomplished and will be 
accomplished. I hand it back.
    [The prepared statement of Mrs. Biggert follows:]
           Prepared Statement of Representative Judy Biggert
    Thank you, Mr. Chairman. And, welcome to each of our witnesses. We 
appreciate your efforts to be here and participate in today's important 
hearing. I am also particularly pleased that my good friend and 
colleague, Russ Carnahan, is able to join me to chair today's hearing 
and kick off the festivities for the U.S. Green Building Council's 
annual International Conference and Expo.
    As Russ just mentioned, we have the distinct honor of leading the 
most exciting Caucus in the House of Representatives. Known officially 
as the High Performance Building Caucus, we have hosted over fifty 
lunch briefings in the last two years on every subject important to the 
definition of a high performing building. So, today's hearing isn't 
just a twist in our usual caucus collaboration--it is another way to 
take our show on the road and raise awareness for the importance of 
high performance buildings.
    No where is the concept of high performance buildings more 
important--and more evident--than right here in my own backyard. 
Chicago is home to many high performing building ``firsts'', like:
    The Chicago Center for Green Technology, the first rehabilitated 
municipal building in the nation to achieve LEED Platinum status.
    And, in 2007, the Exelon headquarters in Chase Tower became the 
largest office space to earn a LEED Platinum rating for Commercial 
Interiors.
    Another great example--and one we will soon hear more about--is 
Bolingbrook High School, located in my suburban district. Bolingbrook 
High School is among the first of new construction LEED certified high 
schools in the nation.
    So, what do these building project examples have in common--and how 
is renewable energy integration important to them?
    These building projects have been constructed with a comprehensive 
building efficiency program. Once in place, an efficiency program can 
help reduce energy demand and the need for new energy capacity over the 
life of the project.
    Improved building efficiency begins with a coordinated design and 
construction plan to accommodate changes in technology and building 
function. As the demand for electricity--and cost of materials--rise 
over the next two decades, the building projects I previously mentioned 
have the foundation in place to utilize existing renewable 
technologies, or incorporate technologies that have yet to be deployed. 
Such an advantage can save homeowners, building managers, or school 
districts precious time and resources.
    Existing applications of renewable technologies in LEED certified 
buildings are already paying off. Some case studies using solar panels 
or geothermal heating systems report a fifteen to twenty percent 
savings in energy costs, with payback occurring two to five years 
earlier than anticipated.
    Long-term renewable technology options, however, hold great promise 
but need more work. Energy storage solutions, such as solar thermal 
heating or, on and off-site stationary batteries can offer significant 
savings for both the end-users and generators of electricity. These 
technologies have been demonstrated in limited amounts and need more 
development before deployed on any broad scale.
    While successful, or promising, some renewable technologies still 
encounter other challenges that prevent more widespread implementation. 
State laws or outdated local statutes have not been updated to 
accommodate neighborhood planning or renewable energy site planning. In 
order to enjoy the fruits of renewable energy integration, we need to 
cultivate a culture of adoption for those technologies.
    With that, I would like to thank you all for being here this 
morning. I look forward to your testimony and to working with you to 
advance renewable energy integration in buildings when Congress returns 
to energy issues next year.

    Mr. Carnahan. Thank you.
    It's my pleasure, now, to introduce our panel. Really, we 
have a great, excellent, and accomplished, and diverse group 
that's here today, so we appreciate you being here. I want to 
start with Mr. Joseph Ostafi. He's the regional leader for 
Science and Technology Division and the group vice president 
for HOK, which is headquartered in my home city of St. Louis. 
Welcome.
    Mr. Ostafi. Thank you.
    Mr. Carnahan. And, next, Mr. Daniel Cheifetz is the CEO for 
Indie Energy Systems Company. Welcome.
    Next, Dr. Jeffrey Chamberlain. He is the department head of 
Electrochemical Energy Storage and the Energy Storage Maker 
Initiative Leader of the Chemical Services and Engineering 
Division at Argonne National Lab. That is one long title. 
Welcome.
    And, next, Ms. Martha VanGeem. She is the Principal 
Engineer and Group Manager for Building Science and 
Sustainability at CTL Group.
    And, for our last introduction, I want to recognize 
Congresswoman Biggert to introduce our last panelist.
    Mrs. Biggert. Thank you, Mr. Chairman.
    It is now my pleasure to introduce Michael Lopez, director 
of Facility Operations for Bolingbrook High School and the 
Valley View School District. Just a few weeks ago, I had the 
pleasure of touring the Bolingbrook High School with Mr. Lopez 
and Principal Mitchem. I think we had a very informative 
behind-the-scenes tour of the school building and its high-
performing attributes. I'd like to point out that their use of 
water-condensed recovery system and the excellent 
implementation of day-lighting throughout the school is so 
impressive as sustainable solutions. Mr. Lopez has worked in 
the construction, academic, and architectural field, and is 
presently responsible for the comprehensive energy management 
of 20 schools in the Valley View School District.
    So, welcome, Mr. Lopez.
    Mr. Carnahan. Thank you.
    Welcome all.
    We will start with Mr. Ostafi. Pleased, and I want to 
recognize you. And, just to remind the witness, we'll recognize 
you for five minutes. Your full written testimony will be 
placed in the record, and we'll follow that up with questions 
from myself and Mrs. Biggert.
    So, Mr. Ostafi.

  STATEMENT OF JOSEPH OSTAFI IV, REGIONAL LEADER, SCIENCE AND 
         TECHNOLOGY DIVISION, GROUP VICE PRESIDENT, HOK

    Mr. Ostafi. Thank you. Good morning. And I thank you, 
Chairman Carnahan and Congresswoman Biggert, for the 
opportunity to discuss innovations and opportunities for on-
site renewable energy integration. I appreciate the opportunity 
to testify here today.
    Architects, engineers, and planners are implicitly center 
stage in the design, construction, commissioning, and 
validation processes. We actively engage and coordinate with 
building owners and occupants, as well as operators and 
maintenance staff, to apply their goals to collectively forge 
environments which meet their current and future needs. We not 
only have the ability to influence the incorporation of a 
renewable energy system into the built environment, but also 
the social obligation to design high-performance buildings for 
today and net-zero buildings for the future.
    Perhaps, surprisingly, one of the most frequent obstacles 
that impede integration of renewables into the built 
environment remains political and financial. Even though the 
federal government and many states have chosen to lead by 
example, there still remain many states and privately funded 
organizations which have fewer mandates and incentives to 
comply. Without continued and increasing governmental mandates 
and subsidies or drastic breakthroughs in efficiencies, the 
equation will remain lopsided. The clear solution in this case 
includes measures which make renewables more cost-competitive 
compared with traditional fossil-based energy sources. This 
could be eased by continued advancements in renewable 
manufacturing processes or through significant advancements of 
their efficiency. Until these technological advancements are in 
place, continued federal and state subsidies, as well as policy 
mandates which encourage their integration, shall remain in 
place.
    On a more applied level, on-site renewable energy sources 
are ultimately directly tied into complex building and 
management systems. Real-time monitoring and optimization 
controls which constantly measure and communicate information 
from vast mechanical, electrical and information-based 
technology systems to its operators and users with the 
anticipation of aggregation will ultimately optimize 
performance results.
    The environmental and energy modeling technologies 
available to the design community rarely can account for the 
human condition with accurate results. We find that with high-
performance buildings, many incorporated renewable technologies 
do not perform the way they were intended to. To this end, 
additional applied research and better computational modeling 
tools could enhance our understanding of the physiological 
human needs and the complex interplay of measurement 
verification and control systems which ultimately moderate 
high-performing building outcomes.
    Three additional areas, briefly, in which applied research 
could further enhance renewable integration and overall 
building performance include on-site renewable systems which 
specifically address dense urban environments, including solar 
wind and solar thermal. As the majority of commercial and 
office buildings are located in urban environments, it's 
difficult to repeatedly and reliably harness renewable energy 
sources on-site.
    Secondly, most buildings and infrastructure do not run on 
DC power, which is the predominant output of renewables. 
Control systems, micro inverters, and meters need to better 
adopt to swing between DC and AC power voltages in a more 
efficient and real-time, cost-effective way. This, coupled with 
the ability to store solar energy, could drastically contribute 
to better all efficiency integration.
    An importance is placed on natural daylight in the built 
environment today. Oftentimes, this increases the demand for 
glass facades while reducing the artificial interior lighting 
loads. Exterior glazing systems are traditionally the worst-
performing elements in the building's exterior envelope system, 
and artificial light loads consume a significant amount of 
building energy load.
    More research needs to address higher thermal-performing 
curtain wall systems, to include face change or self-regulating 
systems in which the ability to store heat when needed, reflect 
solar gain and glare when not, and are thermally resistant to 
harsh exterior temperatures, which can, in turn, ultimately 
mitigate energy use for interior lighting consumption. To this 
end, more reliable, qualitative research can be applied to 
interior renewable lighting concepts, such as solar fiberoptic 
systems, which use daylight and fiberoptic technology to 
naturally light spaces.
    In summary, to take renewable energy technology integration 
to the next level, we must apply research which looks at each 
system as more than just a part of the whole.
    We need multi-disciplinary research that applies 
optimization to renewables which can benefit the entire 
infrastructure of a building, a campus, and even a 
municipality. Finally, we need research with comprehensive and 
scaleable results which encompass all sciences, from political, 
economic, and behavioral to the core physical sciences and 
engineering.
    Thank you for the opportunity to testify today.
    Mr. Carnahan. Thank you, Mr. Ostafi.
    [The prepared statement of Mr. Ostafi follows:]
                 Prepared Statement of Joseph Ostafi IV
    Chairman Gordon and Members of the Committee, thank you for the 
invitation to discuss ``Opportunities for Onsite Renewable Energy 
Integration.'' I appreciate the opportunity to testify today at this 
important hearing.
    Many of you are probably aware that buildings account for 40% of 
energy use and emissions in the US. Without stepped-up renewable 
integration this trend is expected to outpace that of any sector. To 
curtail this, it is essential that buildings' energy use be 
significantly reduced. What I would like to outline today are 
significant challenges and obstacles which hinder the design 
community's ability to integrate innovative renewable energy 
technologies into the built environment.
    Architects, engineers and planners are implicitly center stage in 
the design and building process. We actively engage and coordinate with 
building owners and occupants, as well as operations and maintenance 
staff to apply their goals to collectively forge environments which 
meet their current and future needs. At a minimum, compliance with 
building and energy codes is necessary, though the preference is to 
exceed those minimum standards. Buildings, as well as campuses and 
communities, are a dynamic interplay of complex cybernetic systems. It 
is through this interaction of society and technology that the ultimate 
outcome of how a building or environment performs is demonstrated. 
Often times, design consultants have not only the ability to influence 
the incorporation of renewable energy systems into the built 
environment, but also the social obligation to design high-performance 
buildings, ultimately reducing the demand the built environment has on 
our natural resources as well as our dependency on foreign resources. 
With that responsibility also comes accountability when buildings do 
not perform as originally intended.
    At the onset of building design, the opportunities to produce 
``greener'' buildings are rarely hindered by the ability to incorporate 
higher-performing technologies, but rather are often challenged by 
financial and political issues. Even when renewable energy systems are 
incorporated the positive net effect is sometimes compromised by the 
building location, user behavior, or by the overall building 
operational subsystems not effectively communicating amongst themselves 
and the occupants. All of these factors contribute to marginalize 
design intent and ultimately building performance. I would like to 
articulate those inherent issues and provide some insights into 
additional areas which could provide enhanced building performance 
benefits through further technological innovation and applied research.

Challenge: Financial/Political

    One of the most obvious and frequent obstacles which impede the 
integration of renewables into the built environment remain political 
and financial. Though many States and the Federal government have 
chosen to lead by example, requiring new and renovated government 
buildings to meet stricter energy standards, there still remain many 
State and privately funded organizations which have fewer mandates and 
incentives to comply. As of September, 2010 there are seven US States 
which do not have simple energy standards or executive orders to 
develop or encourage high performing buildings beyond basic energy 
codes such as the 2004 or 2007 ASHRE 90.1. Likewise, only about half of 
the US States and Territories have tax credits, rebates, grants, or 
even local utility involvement to incentivize and offset the initial 
costs of incorporating renewable technologies. Even government-mandated 
policies like the Federal Energy Management Plan which is designed to 
encourage the use of on-site renewables on Federal projects, often 
establish conditional requirements tied to life-cycle cost analysis. 
Too often the first cost decisions outweigh simple payback durations 
which lead to short-sighted fiduciary decisions outweighing long-term 
performance issues.
    Today, many renewable technologies including solar, wind, and solar 
thermal are much more expensive to utilize and employ than conventional 
fossil-based utility sources, and many current building project 
stakeholders are quickly overlooking the long-term benefit. Without 
governmental mandates or forms of continued subsidy the equation is 
lopsided. The clear solution in this case includes measures which make 
renewables more affordable and cost competitive compared with 
traditional energy sources at the outset of a buildings 
conceptualization. This imbalance could be eased by continued 
advancements in their manufacturing costs and overall efficiency of 
performance, and further reinforced by continued Federal and State 
subsidies, as well as policy mandates requiring their integration.

Challenge: Technology and the Inability to Predict Unpredictable Human 
                    Behavior

    As Americans forge ahead in their quest for more sustainable built 
environments, there are fewer technical limitations when 
conceptualizing better performing buildings. Downstream from the design 
concepts and design intents are some of the technical challenges which 
do not allow them to operate or perform to their best ability. One of 
those challenges is related to the interface between people and 
technology; essentially the behavior of its occupants.
    On-site renewable energy sources are ultimately directly tied into 
complex building management systems. As a result, a higher dependence 
is placed on integrated building management and energy systems 
technologies. Real-time monitoring and optimization controls are 
constantly measuring and communicating information from vast 
mechanical, electrical, and information-based technology systems of a 
building to its operators and users with the anticipation that they 
will produce highly optimized and reliable results. Unfortunately, the 
measurement science of predicting the outcome is lacking, and hardware 
and software compatibility of these components and systems are not 
designed to interact with themselves or the end users.
    To this end, two areas which would have compounding benefits from 
increased research are enhanced computational environmental and energy 
modeling tools and more open sourced building management systems 
architecture. Environmental and energy modeling technologies rarely can 
account for the human condition; that is, how users really behave in 
their environments when complex indoor-outdoor and mixed-mode 
strategies interact with more capricious factors such as day-light, 
natural ventilation, and building occupancy utilization. For example, 
we can make predictions that might account for a building occupant 
opening a window to let in a breeze, but it would be difficult to 
determine very specifically when he/she might do that, under what 
temperature conditions, or that on the same day, someone else might 
have turned on all the lights on a building floor during daylight hours 
on a sunny day.

Challenge: Lack of Integration Among Building Modeling Systems

    What furthers this lack of predictable modeling is a deficiency in 
the inability of complex heating, cooling, ventilation, IT, and 
electrical systems of effectively and efficiently interacting amongst 
themselves when factoring in the human condition. This whole building 
systems and occupant science could be enhanced by creating more open-
source measurement and verification technologies which are designed to 
interact and predict with whole building systems complexities. And as 
we look toward achieving net zero milestones, these enhanced technology 
needs should also incorporate emissions measurements of their source 
energy.
    From a more direct technological standpoint, some additional areas 
in which research could further enhance efficiencies and overall 
building performance include:

        1.  On-site renewable systems which specifically address dense 
        urban environments including solar, wind, solar thermal

            As a majority of commercial and office buildings are 
        located in urban environments often times it is difficult not 
        only to harness renewable energy sources at the site, it is 
        sometimes impossible to predict the long-term viability of its 
        utilization on a site-by-site basis. Currently, most zoning 
        regulations do not directly preserve solar access rights which 
        would contribute to the implementation of renewables. Also, 
        current efficiency rates of solar panel technology do not 
        enable taller buildings with limited real estate foot prints 
        enough space to utilize and implement on-site solar 
        applications at ratio which has dramatic increases in energy 
        performance.

        2.  Solar power

            Most buildings and their infrastructure do not run on DC 
        power, which is the predominate output of renewables. Control 
        systems, micro inverters, and meters need to better adapt to 
        swing between DC and AC power voltages in a more efficient, 
        real-time and cost effective way. Better efficiency of 
        conversion and storage of solar energy, including DC to AC 
        power inverters, could contribute toward better efficacy and 
        integration with other building power needs and times of 
        occupancy.

        3.  Daylighting, views and the curtain wall

            With the increased importance placed on day-light and views 
        in built environments, often times this increases the demands 
        for curtain wall systems (glass facade), the exterior glass 
        system which are traditionally the worst performing elements in 
        building envelop systems. More research needs to address higher 
        performing curtain wall systems, even including phase change or 
        self-regulating systems which have the ability to store solar 
        heat when needed, reflect solar gain when not, and are more 
        thermally resistant to harsh exterior environments which 
        ultimately reduce energy and interior lighting consumption.

        4.  Supply side technologies

            Finally, we cannot look at renewable energy technologies 
        exclusively from the demand side. On the supply side, water, is 
        often overlooked as a renewable energy as well as a resource. 
        Additional research and technological innovation which can 
        safely and effectively reuse grey water into a buildings 
        overall water demand needs could benefit from reduced off site 
        municipal management demands by enabling on-site purification 
        for non-potable or even ideally potable use.

    While technology has been and will continue to be a critical 
component of the success of renewable energy integration, technical 
solutions alone are not sufficient to reach the goals of optimization 
which lie ahead of us. It is important to understand the complex 
relationship between technological sustainable development, the 
behavioral impacts of occupants and building owners, and the policy and 
financial costs of implementation; but more importantly, that future 
solutions must encompass the multitude of these challenges if we are to 
achieve optimal results.
    Thank you again for the opportunity to testify today. I would be 
happy to answer any questions you may have.

                     Biography for Joseph Ostafi IV
    Mr. Ostafi has more than 14 years of architectural experience with 
science and technology focused clients for the clean energy, biotech, 
pharmaceutical, and light industrial research and development for both 
private and publicly funded entities. He currently serves as a managing 
principal and Vice President for HOK (Hellmuth, Obata + Kassabaum), a 
full service architecture, engineering and planning design firm 
headquartered in St. Louis, MO. As a regional leader of the 
architecture Science and Technology practice, his focus surrounds fully 
integrated thinking of design, planning, sustainability of research 
laboratories of all kinds for Federal, State, Higher education and 
corporate clients. The experience of serving this variety of clients in 
US and international markets has equipped him to work at the center of 
multidisciplinary teams and carry complex projects to a successful and 
timely completion. Joseph is a frequent speaker at various industry and 
technology conferences on topics related to alternative energy research 
and renewable energy design, planning and technology integration, 
including Tradeline, Labs21, CleanTech, and is a member of the AIA and 
USGBC.

    Mr. Carnahan. Next, I want to recognize Mr. Lopez for five 
minutes.

 STATEMENT OF MICHAEL LOPEZ, DIRECTOR OF FACILITY OPERATIONS, 
         BOLINGBROOK HIGH SCHOOL, ROMEOVILLE, ILLINOIS

    Mr. Lopez. Thank you. First, I want to thank Congresswoman 
Biggert for inviting me, and for Chairman Carnahan and this 
Committee allowing me the opportunity to provide testimony at 
this morning's hearing.
    The perspective I would like to share with you today is the 
relevance and importance of integrating renewable energy 
systems on-site into our living environments and, in 
particular, the K through 12 segment of education. Sixty 
million people, 20 percent of our population, go to school each 
day as students, teachers, staff, or administrators. 
Collectively, they attend over 100,000 public and private 
schools throughout the country. These learners and educators 
spend a substantial amount of their daily lives interacting 
within a manmade environment, an environment that has a 
significant impact on their well-being, performance, and 
achievement.
    More than just providing comfort and protection from 
inclement weather, these structures create a learning 
environment that can either support or detract from the mission 
of our educational system. The relevance of the renewable 
energy systems on-site for schools is significant in many 
respects. First, schools, represented as a market segment, are 
significant consumers of non-renewable energy; gas, 
electricity, and water. Leveraging this market has the 
potential to influence policy and decision-making at all 
levels. As an example, I mentioned in my written testimony 
recent legislation allowing school districts to provide energy 
consortiums for wind production. This is a direction that 
school districts have shown an interest in.
    Secondly, reducing our reliance on non-renewable resource 
production and distribution can result in a reduction of 
capital investment needs for the utility providers. Utility 
companies currently are challenged to provide uninterrupted 
service during peak demands. As an example, our district 
currently participates in a voluntary load response program 
offered by our electric company, which is designed to curtail 
electric usage at peak times and reduce demand on the utility 
companies' transmission systems.
    Thirdly, the reduction of school utility bill costs can 
result in redirecting funds into the classroom. In reference to 
this point, our school district spends $3.2 million annually on 
gas and electricity. This represents over 20 percent of our 
facility operation budget and almost two percent of our entire 
district budget. Like all school systems, we continue to be 
challenged by both budgets and taxpayers to find ways to reduce 
operation of costs in our district.
    And, fourth, reducing our reliance on utility rates and 
ongoing rate increases, trying to reduce the tax impact on 
local communities. As utility costs increase over the long 
term, school districts, the largest taxing body in most 
communities, can realize budget reductions as they migrate 
towards renewable energy systems as the primary means of their 
energy sources.
    These bullet points speak to the need for long-term vision 
regarding how we approach our reliance on energy sources, 
obviously, not just in our educational market, but all market 
segments. From the perspective of the educational market, I 
have witnessed the growing pledge by educational leaders to 
better understand and implement sustainability in school 
communities. As I discuss sustainability with my colleagues in 
various school districts and related industries, a common theme 
emerges: ``Green is good.'' Our commitment to invest in 
technologies and systems that have a beneficial impact to our 
environment are evident in what we in the school industry have 
achieved to date.
    I share with you in this testimony some positive green 
initiatives we have implemented in our school district. 
Collectively, they have produced significant financial savings 
and continue to reduce our usage of gas, electricity, and 
water. However, these initiatives continue to rely on the 
consumption of non-renewable resources. We are charged with 
continuing to optimize efficiencies in our building system and 
operations, but we recognize that, long term, we will begin to 
see diminishing returns on our investments into non-renewables.
    In the case of our LEED-certified high school, which was 
designed in early 2000, the district explored opportunities for 
incorporating renewable energy systems, such as solar panels. 
However, the return on investment at first cost, as well as 
physical constraints, met us when incorporating this technology 
into the project. Our desire to continue to explore other 
renewable opportunities in current and future projects is 
encouraged by dialogue such as that in today's hearing. For 
example, renewable rate design concepts supplied large scale to 
demonstration of employment problems in the educational market 
can positively impact price points on the rate of technologies 
and systems.
    The time for renewable resource wide-scale applications is 
no longer futuristic thinking. It is a technology knocking on 
our front doors. I would be remiss if I did not point out the 
myriad of other benefits that result in creating a long-term, 
green-schooled environment. There is substantial research that 
supports the correlation into the green schools, and improves 
student health, decreased absenteeism, improved student 
performance, and operating cost savings.
    Additionally, evidence points to green schools increasing 
teacher retention, increasing property values, and, in general, 
providing a conduit for collaborative ventures within the 
community.
    These benefits underscore the significance that the 
emerging green technologies play in our learning environments. 
We thought about what this Committee is charged with, and feel 
that your continued advocacy for renewable resource technology 
development and market deployment can have real impact for the 
60 million children and adults that enter school buildings 
every day. Articulating the vision that would bring these 
technologies into the educational community demonstrates a 
commitment to our future generations.
    I want to thank this Committee again for the opportunity to 
participate in this hearing. Thank you.
    Mr. Carnahan. Thank you, Mr. Lopez.
    [The prepared statement of Mr. Lopez follows:]
                  Prepared Statement of Michael Lopez
    Sustainability is the balance of economic, environmental and social 
objectives in ways most likely to create long term value, without 
taxing the resources on which we depend.
    This report discusses the implementation of a long range strategic 
initiative for sustainability in the secondary learning environment. In 
general, it focuses on the opportunities available for those in 
educational leadership positions to influence and shape policy and 
decision making at a local level, while relying on resources made 
available through a broad array of funding and R&D sources.
    Three key components that define the success of a comprehensive 
initiative for sustainability include:

        1.  Educating decision makers and stakeholders on the relevance 
        of sustainability.

        2.  Developing a strategic approach to creating healthy 
        learning environments with available resources.

        3.  Defining a long range plan to reduce the dependency on non-
        renewable resources.

Educating decision makers and stakeholders on the relevance of 
                    sustainability

    There are many factors that can impact the success (or failure) of 
a school district wide initiative, not the least of which is the means 
by which the message is communicated. Without the awareness and support 
of the senior leadership in a school organization, the program will not 
generate the impetus necessary to initiate the steps to succeed. In the 
case of sustainability, the factors to be communicated include an 
acknowledgment of global impact, budgetary impact, impact to the 
learning environment, and educational opportunities in the classroom.
    The Global Impact of our decisions on how we build, renovate and 
operate facilities is tremendous: Buildings consume over 40 percent of 
the energy used in our country, and account for 38 percent of carbon 
emissions. 70 percent of electricity in the United States is consumed 
by buildings. As a nation, we use 5 billion gallons of water per day to 
flush toilets. The air pollution created from burning fossil fuels used 
to heat and generate electricity for buildings has an enormous negative 
impact on our health, environment and property. Recognizing the direct 
correlation between decisions we make at the local level (gas, electric 
and water consumption), and the global impact of these decisions, 
demands one to reflect on the value we can create through environmental 
stewardship. Our decisions relating to facilities in the school 
community share these consequences to the environment.
    As reported in Kats' study (2006), a green school could lead to the 
following annual emission reductions per school:

        <bullet>  1,200 pounds of nitrogen oxides, a principal 
        component of smog.

        <bullet>  1,300 pounds of sulfur dioxide, a principal cause of 
        acid rain.

        <bullet>  585,000 pounds of carbon dioxide, the principal 
        greenhouse gas.

        <bullet>  150 pounds of coarse particulate matter (PM10), a 
        principal cause of respiratory illness and a contributor to 
        smog.

    By choosing to build, renovate and operate green schools, we assert 
our commitment to being conscientious leaders in our communities.
    The Budgetary Impact to a school district on how they build, 
renovate and operate their facilities is equally impressive: The United 
States will see nearly $90 billion in K-12 school construction between 
2010 and 2012, according to estimates by McGraw-Hill Construction, a 
leading national construction forecaster. Many school decision makers 
across the country will weigh the cost and value of implementing 
sustainable features in their projects. According to the Sustainable 
Buildings Industry Council (SBIC), school districts can save 30 to 40 
percent on utility costs each year for new schools and 20 to 30 percent 
on renovated schools by applying sustainable, high performance design 
and construction concepts. Using less energy than conventionally 
designed schools, sustainable schools not only have lower utility 
bills, they also have the potential to lower market-wide energy costs 
by reducing demand (Kats, 2006). Additionally, the potential payback to 
the nation's power grid is enormous if schools invest in upgrading the 
energy performance of their new and existing facilities.
    When considering implementing sustainable features in the design of 
new and renovated facilities, evidence suggests that there is a first 
cost premium to going green. This is the result of specifying higher 
quality materials and construction, and more efficient building 
systems. However, over time, these systems demonstrate a favorable 
return on investment, both in terms of healthier indoor environments 
and savings in energy and water. A 2006 study of 30 green schools 
nationwide showed that a 2 percent increase in first cost, about $3 per 
square foot, paid back $10 per square foot in energy and water savings 
over the course of the buildings' service lives (Kats, 2006).
    Probably the most relevant information to communicate regarding 
sustainability in a learning institution is the Impact to the Learning 
Environment. A significant amount of research has been published 
correlating student performance and health benefits to the learning 
environment. Healthy schools have been shown to improve student focus, 
retention, and test scores; enhance teacher performance; and lower 
absenteeism among students and teachers.
    Among these studies, a report published by Air Quality Sciences 
titled ``Green, High Performance Schools'' (2009) cites the following 
examples of school specific studies relating positive impacts from 
improving the indoor environment:

         ``An analysis of two school districts in Illinois found that 
        student attendance rose by 5 percent after incorporating cost-
        effective indoor air quality improvements'' (Illinois Healthy 
        Schools Campaign 2000).

         ``A study of Chicago and Washington D.C. schools found that 
        better school facilities can add three to four percentage 
        points to a school's standardized test scores, even after 
        controlling for demographic factors'' (Schneider 2002).

         ``A recent study of the cost and benefits of green schools for 
        Washington State estimated a 15 percent reduction in 
        absenteeism and a 5 percent increase in student test scores'' 
        (Paladino & Company 2005).

    Many other studies supporting the positive correlation between 
student performance and the environmental condition of school 
facilities can be found in publications from the National Clearinghouse 
for Educational Facilities and the United States Green Building 
Council.
    Incorporating Educational Opportunities in the Classroom can 
further underscore the relevance of sustainability; by integrating our 
sustainable strategies in an educational forum, we pass on our 
commitment to environmental stewardship to future generations. The 
important point to make here is that sustainable education needs to be 
an integral part of the curriculum, not an amendment to it. Teachers 
face a myriad of challenges educating students on a standard 
curriculum, on a daily basis; adding to their course load may not 
improve the overall learning experience of the students. So a 
successful approach should weave sustainable elements into a well 
balanced curriculum.

Developing a strategic approach to creating healthy learning 
                    environments with available resources

    One of the greatest challenges facing school districts today is 
balancing diminishing financial resources with the operational needs to 
run the district. Staff salaries and benefits, curriculum, 
transportation, food service, and facility operations all compete for 
dwindling funds from taxing bodies. The challenge for many school 
districts has been to develop creative approaches to providing 
educational support services while trying to minimize the impact to the 
classroom. When it comes to facility management and other support 
services, making wise investments and decisions in the infrastructure 
and capital improvements helps the district mitigate its operational 
costs.
    In the case of Valley View School District (in a collar county of 
Chicago), developing a comprehensive approach to energy and 
environmental management was key to alleviating the rising costs 
associated with the operation of an expanding school district. Faced 
with a growing population in the late 1990's, the district embarked on 
an extensive expansion program, resulting in the construction of 
several new schools and renovations to existing facilities. The 
construction of a new high school in early 2000 enabled the district to 
apply sustainable features to a flagship project for the district, 
resulting in the first LEED (Leadership in Energy and Environmental 
Design) certified school in Illinois, and the fourth certified high 
school in North America. Bolingbrook High School opened its doors to 
students in August 2004, and has served as a catalyst for subsequent 
sustainable development in the district.
    In 2009, the school district gave definition to its sustainable 
program by terming it the Comprehensive Energy and Environmental 
Management Initiative (CEEMI). Through the CEEMI program, the district 
has developed a road map for implementing sustainable projects and 
initiatives that have resulted in substantial savings and improvements 
to the district.
    The attached presentation has been used as a tool to share with 
various stakeholders and communities, the positive impact sustainable 
measures have had on the Valley View School District. [see attachment].

Defining a long range plan to reduce the dependency on non-renewable 
                    resources

    The ultimate goal of a comprehensive energy and environmental 
management program should be to reduce the reliance on non-renewable 
energy sources. The aforementioned ``strategic approach to creating 
healthy learning environments with available resources'' is a viable 
measure to mitigate energy consumption, but as a long term permanent 
plan, it has its limitations. As indicated in a report to the 110th 
Congress, ``economic and environmental concerns--namely energy 
security, international competitiveness, high energy prices, air 
pollution and climate change--are now driving policy proposals to 
support renewable energy R&D and market deployment''.
    Given the daily challenges school districts face in educating our 
children, it is difficult for school leaders to focus on long term 
strategic energy initiatives which rely on promising technologies, such 
as wind, solar and biomass. Nonetheless, as major consumers of energy 
in our country, school districts throughout the nation can have a 
positive influence in efforts to reduce reliance on non-renewable 
resources. The benefits that can be derived from leveraging the school 
communities' assets are tremendous:

        <bullet>  Reduction of carbon emissions on a national scale

        <bullet>  Reduction of capital investment needs for utility 
        companies, by reducing the load on utility grids

        <bullet>  Reduction of school utility bill costs, which can 
        redirect funds towards the classroom

        <bullet>  Reduction of need for local tax increases associated 
        with utility costs for school systems

    Many states have recognized the benefits of green design in public 
facilities by legislating new school construction to be LEED certified. 
Using this concept as momentum for long term planning, educational 
leaders should partner with current and future energy research programs 
that lead to innovative applications of renewable resources on a large 
scale. For example, Illinois recently passed legislation that allows 
school districts to form consortiums to build wind turbines to generate 
power off site, and receive credit from utility companies at current 
costs of electricity. Strategies such as this save taxpayers' dollars, 
preserve educational spending for the classroom, benefit the global 
environment, and demonstrate to children and families the importance of 
environmental stewardship. A continuation of this type of legislation, 
based on on-going research and development of emerging technologies, is 
vital to achieving long term initiatives in the school environment.
    The opportunity for educational leaders to participate in the 
discussion and application of renewable energy technologies has 
immeasurable value, and will allow learning environments to share in a 
legacy of sustainability.

                      Biography for Michael Lopez
    Mr. Lopez is a licensed architect with 26 years experience in the 
design and construction of educational, institutional, commercial, and 
residential buildings. He graduated with a professional degree in 
Architecture from the University of Notre Dame in 1984, and has worked 
for several architectural and corporate firms over the course of his 
career. Additionally, he served as an adjunct instructor for Purdue 
University Calumet for several years, teaching courses in their 
Department of Construction Technology.
    Prior to his current position, Mr. Lopez was a Senior Project 
Manager with Wight & Company, a multi-disciplined architectural and 
construction management firm. While at Wight, he was involved in the 
design and construction of Bolingbrook High School, the first LEED 
certified school in Illinois.
    In 2008, he became Director of Facility Operations for Illinois' 
Valley View Community Unit School District, a district comprised of 20 
schools from pre-kindergarten through 12th grade, with a student 
population of 18,000, and a staff of 2,500. Mr. Lopez is responsible 
for the school district's ``Comprehensive Energy and Environmental 
Management Initiative'', or CEEMI, a comprehensive approach for 
creating a sustainable environment for the district's 2.5 million 
square feet of facilities and 463 acres of green space.
    Mr. Lopez is a member of the International Association of School 
Business Officials, a member of the United States Green Building 
Council, and a member of Rotary. He is a LEED (Leadership in Energy and 
Environmental Design) Accredited Professional. He is registered with 
the National Council of Architectural Registration Boards, and is 
licensed to practice architecture in Illinois, Indiana and Wisconsin.
    Mr. Lopez is married to his wife of 25 years, and has three 
children, including one college graduate. He resides in Munster, 
Indiana.

    Mr. Carnahan. I next want to recognize Mr. Cheifetz for 
five minutes.

 STATEMENT OF DANIEL CHEIFETZ, CHIEF EXECUTIVE OFFICER, INDIE 
                  ENERGY SYSTEMS COMPANY, LLC

    Mr. Cheifetz. Thank you. Good morning, Chairman Carnahan, 
Representative Biggert, staff, guests, other panelists. My name 
is Daniel Cheifetz. I'm the CEO of Indie Energy Systems 
Company. We're a leading developer of smart geothermal 
technology systems for heating and cooling buildings by 
integrating them with their on-site geothermal energy resource 
in a way that decreases the cost of adoption and radically 
increases energy efficiency. We are a private company 
headquartered in Evanston, Illinois. Forty percent of our staff 
is in R&D and engineering, while another 40 percent is in our 
high-tech geothermal energy field construction division.
    I appreciate the opportunity to testify before you today on 
a subject that is important, hopeful, and exciting. How can we 
realistically integrate our built environment with on-site 
renewable energy? I hope that, in the written testimony, I've 
given enough detail for you. I'd like to summarize.
    Our goal, as a company, is to develop technologies to 
change the price performance curve so that on-site renewables 
can become de facto standard in our built environment. We have 
created a set of technologies for on-site geothermal energy 
systems for buildings: building-ground simulation technology, a 
real-time data network for measurement and verification, smart 
servers that use real world, rich data for ongoing dynamic 
control and extreme energy optimization, and technology to 
lower the construction costs of geothermal energy fields while 
improving quality and feasibility.
    We have focused on defining and improving the applications 
of on-site geothermal to national retail, multi-unit 
residential, educational, and corporate campuses, health care, 
and a number of other market segments, both new and retrofit, 
standalone, and district. Some of them perhaps you're familiar 
with. North Central College in Napierville. There's a 
Walgreen's that just opened in Oak Park, Illinois. There is a 
wonderful, senior, affordable, multi-unit facility in Pilsen, 
all of which are great examples of how geothermal can feasibly 
and practically be applied in a wide range of buildings.
    They are replicated across the country. Each of these 
applications represents billions of square feet of buildings 
that will generate returns on investment of billions of dollars 
a year while creating thousands of jobs. This is an integrating 
technology since no one company can, or should, try to do this 
themselves. So we've created a technology that can be embedded 
in the practices and products and services of other 
organizations; architecture, engineering, construction firms, 
building automation systems, as well as national research 
initiatives.
    While the technology can be applied domestically and can be 
exported internationally, one of the interesting things about 
geothermal as a renewable technology is that it must be built 
on site. Energy fields cannot be built somewhere else and 
shipped here; they need to be built where the buildings are. As 
we grow this industry, it cannot be outsourced or off-shored. 
Local workers will build local geothermal properties in their 
own communities.
    To bring this about, we need applied R&D focused on 
delivering incremental breakthroughs in the short term. They 
would attract capital to projects and products, and have an 
almost immediate effect on job creation. One of the areas of 
this R&D that's really needed is in the construction of the 
geothermal energy field itself. Because no matter how much 
additional efficiency we can squeeze out of the system, and no 
matter how much we are able to reduce costs with hybrid systems 
and new materials, the physical construction of a geothermal 
energy field will remain the largest barrier to adoption, since 
that is where the greatest incremental cost is incurred.
    The R&D required to produce semi-automated, high-speed 
production drilling equipment are based on, actually, things 
that already exist. It would be quickly amortized over the 
billions of dollars of value that they would generate. There's 
no doubt that this equipment will be developed and manufactured 
somewhere. Our question is, ``Why can't we do it?'' In a sense, 
that's the whole idea of our hope, amongst these panelists, and 
what we can do together. The foundation's been built. More work 
will be done by ourselves and other companies, but this is a 
great opportunity to pool our efforts and get some things done. 
Science is needed, for sure, but not rocket science.
    Thank you very much for the opportunity to be here with 
you.
    Mr. Carnahan. Thank you.
    [The prepared statement of Mr. Cheifetz follows:]
                 Prepared Statement of Daniel Cheifetz
    Good morning Chairman Carnahan, Ranking Member Biggert and Members 
of the Subcommittee, staff, and guests.
    My name is Daniel Cheifetz. I am the CEO of Indie Energy Systems 
Company. Indie Energy is a leading developer of smart geothermal 
technology systems for heating and cooling buildings by integrating 
them with their on-site renewable geothermal energy resource in a way 
that decreases the cost of adoption while radically increasing energy 
efficiencies. We are a private company headquartered in Evanston, 
Illinois. Forty percent (40%) of our employees are in R&D and 
engineering, while 40% are in our high-tech energy field construction 
division.
    I appreciate the opportunity to testify before you today on a 
subject that is important, hopeful, and exciting.
    I have been asked to address four areas:

        1.  Examples of geothermal integration projects, including the 
        demonstration project that was a recipient of a U.S. Department 
        of Energy competitive funding award

        2.  The Smart Geothermal technology Indie Energy has developed 
        to enable widespread adoption of geothermal-based heating and 
        cooling systems for the built environment

        3.  The state of the market and the need for innovation

        4.  R&D recommendations for the Committee to consider related 
        to the adoption of integrated geothermal systems in individual 
        buildings as well as campus and district systems

Selected current projects
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

Selected current projects
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


Smart Geothermal <SUP>TM</SUP> Technologies

    The following breakthrough technologies have driven Indie Energy's 
market leadership in the Chicago metropolitan area:

        1)  RightSize <SUP>TM</SUP> energy field and hybrid mechanical 
        system designs that deliver the lowest build cost with the 
        highest energy efficiency.

        2)  ProvenGround <SUP>TM</SUP> turnkey energy fields utilize 
        the Company's exclusive drilling technology, which provides a 
        dramatically higher standard for quality, speed, and cost of 
        construction.

        3)  GeoPod <SUP>TM</SUP> measurement and verification systems 
        monitor the Smart Geothermal system remotely, in real-time, and 
        provide cost and carbon savings information, dashboard displays 
        for owners and public, and maintenance alerts.

        4)  EnergyLoop <SUP>TM</SUP> controls and adaptive optimization 
        systems provide ongoing improvements in cost savings and energy 
        efficiency by controlling the dynamic interactions between the 
        building, ground and grid.

        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        

The Potential of Onsite Geothermal and the Need for Innovation

    For decades, we have known a lot about geothermal for heating and 
cooling buildings.
    We have known that geothermal energy exchange is an effective, 
renewable way to significantly reduce heating and cooling costs and 
greenhouse gas emissions.
    We have known that anything that can be done with an HVAC/R 
(heating, ventilation, air conditioning, refrigeration) system can be 
done with a geothermal system--a mechanical system that couples the 
building with the ground.
    We have known that geothermal-based heating and cooling has been 
successfully used in every climate, and in every building type. In 
fact, a DOE report at the end of 2008 stated that these systems ``. . . 
use the only renewable energy resource that is available at every 
building's point of use, on-demand, that cannot be depleted (assuming 
proper design), and is potentially affordable in all 50 states.''
    However, what we know is not always consistent with what we do. 
Less than one-tenth of one percent of buildings make use of their 
onsite earth resource for heating and cooling. It is as if our rooms 
are still illuminated by kerosene lamps because we have not been able 
to deploy a technology for electric lighting.
    This is due to technical, financial, and educational gaps. 
Innovation is the key to bridging those gaps, and Indie Energy's 
mission is to develop and deliver the technology innovations needed to 
enable a widespread transformation of our built environment to one much 
more healthy economically and environmentally through the use of smart 
geothermal technology systems.

Beyond First Generation Geothermal

    Compared to conventional, first generation geothermal, Indie Energy 
Smart Geothermal <SUP>TM</SUP> technology provides substantial economic 
benefits on two fronts: lower build cost, and radically higher 
operating efficiencies. Indie Energy has developed high-resolution 
state-of-the-art technology for understanding the dynamic thermal 
exchange between the building, its use, and the earth (the geothermal 
energy field). This has allowed Indie Energy to develop and prove a 
range of innovative products and solutions for simulation, measurement, 
verification, control and optimization which are currently powering 
Indie Energy's turnkey systems and which can also be embedded by 
channel partners in third-party-built systems.
    These innovative technologies enable extremely energy efficient 
geothermal heating and cooling systems whose performance can be proven. 
Even more importantly, these technologies overcome the most significant 
barrier to adoption <SUP>2</SUP>--the high first cost of the system 
with inadequate return on investment.
    Indie Energy has proven its enabling, embeddable technologies for 
integrating onsite renewable geothermal energy in millions of square 
feet of commercial, public, and institutional geothermal building 
systems, both new and existing, in the Chicago metropolitan area.
    A number of R&D initiatives have been undertaken:
    Indie Energy has been awarded a $2.45 million matching competitive 
grant by DOE to demonstrate what the DOE called its ``transformative 
technologies'' at a retrofit of a 166,000 square foot, three-building 
campus. Some of the technologies demonstrated are a district system (in 
which one geothermal energy field is shared by three buildings), Indie 
Energy's GeoPod <SUP>TM</SUP> for real-time measurement and 
verification utilizing a moving baseline, and Indie Energy's Smart 
Geothermal Network <SUP>TM</SUP> and EnergyLoop <SUP>TM</SUP> Controls.
    In order to help develop standards for smart geothermal system 
technology, Indie Energy has engaged the Oak Ridge National Laboratory 
to evaluate its GeoPod <SUP>TM</SUP> technology.
    In order to assist in the development of shared research databases, 
Indie Energy is working with the National Renewable Energy Laboratory 
to make Indie Energy's Smart Geothermal Network <SUP>TM</SUP> available 
to researchers and projects nationwide.
    In order to push the envelope in materials science to develop 
breakthroughs in thermal transfer and storage media, Indie Energy has 
entered into an R&D relationship with the University of Illinois at 
Chicago.
    In order to advance the state of the art in geothermal energy field 
construction, Indie Energy has entered into a multi-year joint R&D 
agreement with GeaWelltech, the Swedish manufacturer of the specialized 
geothermal drilling equipment used by Indie Energy.

Is There a Market?

    There is no well-defined onsite geothermal heating and cooling 
industry in 2010. Rather, it is a fragmented landscape populated by 
engineering and architecture firms, drillers, HVAC installers, and 
equipment manufacturers with occasional ESCO and utility companies 
making appearances.
    There are many data points and trend lines that point to the 
possible emergence of an industry that could drive large scale growth 
of an onsite geothermal industry for renewable heating and cooling:
    In 2005 the geothermal heat pump market was a $2.5 billion industry 
\1\ in the United States. Since then, there has been significant growth 
driven in large part by rising energy costs, policy changes for 
greenhouse gas curtailment, and federal tax incentives passed in the 
American Recovery and Reinvestment Act. Manufacturers of geothermal 
heat pumps shipped 36,439 units in the U.S. in 2003, and 63,683 units 
in 2006. Data posted in 2005 show more than 600,000 geothermal heat 
pumps in operation in the U.S. alone.
---------------------------------------------------------------------------
    \1\ Galst, Liz, NY Times, With Energy in Focus, Heat Pumps Win 
Fans, August 13, 2008
---------------------------------------------------------------------------
    A market report published by the U.S. Department of Energy in 2008 
suggests that geothermal technology for heating and cooling buildings 
could become a major contributor to the national energy policy 
movement, with the potential to save $38 billion annually in energy 
costs \2\. The report identifies key technologies required for this to 
take place. (These are the technologies that Indie Energy has developed 
and proven.)
---------------------------------------------------------------------------
    \2\ Hughes, Patrick, Oak Ridge National Laboratory, Geothermal 
(Ground-Source) Heat Pumps:Market Status, Barriers to Adoption, and 
Actions to Overcome Barriers, December, 2008
---------------------------------------------------------------------------
    The City of Chicago Climate Action Plan has recently (September 
2010) published recommendations of the Environmental Law and Policy 
Center's Clean and Renewable Energy Working Group \3\ that the City 
undertake geothermal projects for one hundred million square feet of 
existing buildings over the next ten years to reduce 0.271 million 
metric tons of greenhouse gases. While Indie Energy discounts these 
figures in its own projections of near-term market size, they suggest 
that the potential market in the top ten metropolitan areas in the U.S. 
is approximately $4 billion for its Smart Geothermal <SUP>TM</SUP> 
technology alone.
---------------------------------------------------------------------------
    \3\ http://elpc.org/2010/10/19/report-of-the-clean-and-renewable-
energy-working-group-released

A Way Forward through Applied R&D

    I come out of the software industry. We bet our futures on 
exponentially accelerating price performance ratios. We saw the power 
of DARPA and the resultant Internet. It's the technology wave my 
company rode, and if you have ridden a wave like that, you get to feel 
its characteristics in your bones. Renewable energy and clean 
technology is such a wave.
    As Ray Kurzweil has pointed out in his Law of Accelerating Returns, 
``. . . technology, particularly the pace of technological change, 
advances (at least) exponentially, not linearly, and has been doing so 
since the advent of technology, indeed since the advent of evolution on 
Earth.'' And that rate of exponential growth itself grows 
exponentially.
    About half of the growth in the U.S. GDP since World War II is 
related to the development and adoption of new technologies. That fact 
has not been lost on the rest of the world. So, it's not a question of 
whether there will be technological change in onsite renewable energy 
technology, or even when it will start. It has started in earnest in 
many places around the world that are starting to ride up the 
exponential innovation curve. The only question is whether we in the 
U.S. will participate before the curve gets too steep for us to earn 
our place as technology pioneers once again.
    In addition to longer term, very high dollar ``pure'' research, we 
can achieve exponential improvements with a combination of additive 
steps as long as we think and design with a whole systems approach, and 
as long as we are not driven so much by the competition of others as by 
the prospect of a competing, unhappy, alternate future.
    To bring this about we need a significant portion of our nation's 
R&D to be applied R&D, focused on delivering incremental breakthroughs 
in the short term. These are breakthroughs that could be market-ready 
Of not ``shovel-ready'') and quickly move into the supply chain. They 
would attract capital to products and projects and have an almost 
immediate effect on job creation.
    Here are some of the things that are opportunities for onsite 
renewable energy integration:
    We would like to see low-grade-heat combined heat and power engines 
that we can plug into our systems to make them more energy efficient 
and the grid smarter.
    We would like to see variable speed compressors; better heat 
exchangers; and low temperature (140F and below) heating systems 
standards so that systems can be incrementally more efficient and 
feasible for demanding applications.
    We expect more--in fact we are planning on seeing more--in-building 
wireless sensor and actuator networks from companies such as EnOcean so 
that we can implement more affordable systems and healthier, more 
productive, ground-coupled buildings.
    Even relatively simple things like infrared smarter ``thermostats'' 
that can measure more than just dry bulb temperature would help us and 
our engineering and architecture partners create more comfortable and 
efficient micro zones in buildings that we could then interactively 
balance with all the other energy flows in the building and between the 
building and ground.
    All these things will further enrich our building/energy simulation 
technology, populate our Smart Geothermal Network with real-time data 
for measurement and verification while providing our EnergyLoop <SUP>TM</SUP> 
Engine with rich data for ongoing dynamic control and extreme energy 
optimization.
    Additional investments need to be made in technology to lower the 
construction cost of geothermal energy fields while improving quality. 
No matter how much additional efficiency we can squeeze out of a 
system, and no matter how much we are able to reduce costs with hybrid 
designs and new materials, the physical construction of the geothermal 
energy field will remain the largest barrier to adoption since that is 
where the greatest incremental cost is incurred. It is indicative of 
the underdeveloped state of onsite geothermal that almost without 
exception the equipment (drill rigs and compressors) used to construct 
the geothermal energy field has not seen a significant technological 
breakthrough. The R&D required to produce semi-automated high-speed 
production drilling equipment would be quickly amortized over the 
billions of dollars of value that they would generate. There is no 
doubt that this equipment will be developed and manufactured somewhere. 
Why not here?

Wherefore Art We?

    It is not clear at this point if onsite renewable energy for 
buildings has found its real home in Washington D.C.. ARPA-E is a 
terrific new entity, but it may be more oriented to the ``pure and 
big'' than the ``small, distributed, and now''. Onsite geothermal has 
had an identity crisis vis-a-vis geothermal power, but it is not clear 
how well its relocation to the Office of Energy Efficiency and 
Renewable Energy's (EERE) Building Technologies Program is working. 
Wherever the program ends up, it should lose the ``Geothermal Heat Pump 
Program'' tag. As instrumental as some of the equipment manufacturers 
have been in getting incentives for ``GHP systems'', developing a real 
science and industry to integrate buildings with onsite renewable 
geothermal energy will not get the support it needs if it continues to 
be thought of as a collection of ``heat pumps'', ``wells'', and 
``loops''.

Conclusion

    It used to take twenty years for a new technology to really become 
ubiquitous. We don't have twenty years for this new technology to 
become the standard for how we build our new buildings and fix our 
existing ones. Fortunately, this is not the kind of disruptive 
innovation that requires a whole new delivery mechanism, or the 
unseating of historical incumbents. This new energy infrastructure 
plugs into almost all the engineering, architectural, and construction 
channels that exist. These are channels that are actually motivated by, 
and have a hunger for, breakthroughs that can be effectively and 
pragmatically designed and delivered to their clients with lower risk 
than the status quo. This is not a technology where we have to create 
the need in order to build demand. The need is recognized, and there is 
a huge pent-up demand.
    Indie Energy has created a set of technologies that enable the 
widespread adoption of onsite geothermal renewable energy systems for 
buildings. It is an embeddable technology that can work with the 
offerings and practices of engineering and architectural firms. In 
fact, that kind of collaboration is how many of our projects came about 
in the Chicago area. While the technology can travel, geothermal energy 
fields must be built onsite, where the buildings are--they cannot be 
built somewhere else and then shipped here. As we grow this industry, 
it cannot be outsourced or off-shored. Local workers will build local 
geothermal properties in their own communities. It will take a number 
of decades for us to fix our existing building stock; by then, we will 
be building new buildings again, and the standard for their mechanical 
systems will be based on onsite renewable smart geothermal.
    Thank you very much for the opportunity to be with you here today.

                     Biography for Daniel Cheifetz
    Daniel Cheifetz, CEO and Founder, Indie Energy Systems Company
    Mr. Cheifetz is an experienced technology entrepreneur, whose 
achievements include a leadership role in the successful IPO of Open 
Text (Nasdaq: OTEX) in 1996. With more than 30 years of executive 
leadership in technology companies, he brings an extensive track record 
to the growing clean energy industry.

Experience
Indie Energy Systems Company, CEO 2006-present
Open Text (OTEX), Exec. VP, Development, Board member
Odesta Systems Corporation, Founder and CEO

Education
Grinnell College, BA

    Mr. Carnahan. And next, Dr. Chamberlain.

     STATEMENT OF JEFFREY P. CHAMBERLAIN, DEPARTMENT HEAD, 
    ELECTROCHEMICAL ENERGY STORAGE RESEARCH, ENERGY STORAGE 
INITIATIVE LEADER, CHEMICAL SCIENCES AND ENGINEERING DIVISION, 
                  ARGONNE NATIONAL LABORATORY

    Dr. Chamberlain. Thanks. Good morning, Chairman Carnahan, 
Congresswoman Biggert, and Committee staff. My name's Jeff 
Chamberlain. I am the Department Head for Electrochemical 
Energy Storage and Energy Storage major initiative leader at 
Argonne National Laboratory. I have a Ph.D. in physical 
chemistry from the Georgia Institute of Technology. And, before 
I came to Argonne, I worked as a researcher, developing 
products for private industry at Cabot Microelectronics, now 
Oak Chemical, and Angus Chemical Company, now owned by the Dow 
Chemical Company.
    I'm honored to be here to talk with you today about the 
need for energy storage technology for renewable energy systems 
for on-site generation, both for individual buildings and small 
community-based systems. Thank you for inviting me to this 
hearing to offer my testimony. Thank you, also, for holding 
this particular hearing. The questions you are asking are 
critically important. A portfolio of renewable energy balanced 
with nuclear and coal-generated power, combined with the 
electrification of the U.S. vehicle fleet, will ultimately 
enable a new era of energy security for the citizens of the 
United States, as well as have an enormous impact on America's 
economic prosperity and our environment.
    I'll first answer your query directly now, then supply some 
more background with the remainder of my time. There is, 
indeed, a gap in the research portfolio in the U.S. and the 
need for energy storage technology for on-site renewable energy 
generation. This gap could be filled by a coordinated research 
effort across the national labs, and connected directly to 
industry. The research that is being performed in the U.S. and 
around the world for this application is essentially aimed at 
testing existing technologies that were developed for other 
applications. Specifically, for example, batteries that are 
used in automobiles may be repurposed, at the end of their 
useful life, for transportation as stationary batteries.
    The second example is that modules from large, megawatt 
systems that are being developed with a grid are also being 
tested for the smaller scale applications in question. But it 
is vital to perform research to develop technology directly for 
a given application. For example, small, light-weight, lithium 
ion batteries have been developed for portable application, 
such as for cars and electronics. While the implications and 
technology needs for the stationary systems are different, size 
and weight are not nearly as important for stationary 
applications. Here, efficiency, durability, and cost are the 
main drivers.
    Some energy storage solutions for stationary applications 
include large tanks of chemicals, called flow batteries, where 
we see the pumping of entire lakes where the water inclines for 
later electricity generation as it is passed, using gravity, 
through a turbine. The point is, not all energy storage 
technologies are the same, and it is not sufficient to hope 
that a technology developed for one application might fill the 
need of another.
    Right now, the U.S. is a world leader in developing energy 
storage technologies for vehicles, thanks to our investment in 
energy technology research at the Department of Energy's 
national laboratories. At Argonne, Lawrence Berkley, and other 
national labs, we invent new materials using both theory and 
experiment scaled at their useful level, put them in battery 
cells, and test them. The battery technologies developed at 
Argonne are being used by industry to power electric cars that 
will soon be on the road. BASF, Toyota America, and the Silicon 
Valley start-up Columbia systems are already basing to 
commercialized materials developed at Argonne.
    Looking forward, we expect our technology to power millions 
of cars in the coming years, and expect our continuing research 
to bring down the price of those cars while increasing their 
range in power. However, the United States has not made the 
same continued investment in larger battery technologies 
intended for both grid scale and on-site stationary 
applications. We do perform world-class research developing 
systems that generate electricity from wind and solar sources, 
but we do not currently have the technology to save that 
electricity to light, heat, and cool the buildings at the times 
when the wind doesn't blow and the sun doesn't shine.
    The work we've done on transportation scale batteries is 
useful in creating larger energy-scaled storage systems, to a 
point. We're working to validate battery technologies that have 
been developed for other applications. For example, car 
batteries that reach the end of their useful life in a vehicle 
might still be useful for stationary applications. But that 
approach, although it may yield some useful results, is not as 
effective as full-scale research and development addressed in 
energy storage as a whole, from cell phone batteries all the 
way up to grid storage.
    Right now, we have real gaps in our storage research 
portfolio, and we cannot fill those gaps without large-scale, 
long-term, well-funded, and well-coordinated research programs 
that bring together the best and most innovative scientists and 
engineers in academia, industry, and the national laboratories. 
The good news is that, at present, no other countries have 
succeeded in creating large-scale energy storage technology. 
Japan, Korea, and China are ahead of the U.S. in developing 
large, coordinated R&D efforts to address the stationary energy 
storage need. Even so, we have a real opportunity to take 
international leadership in this field, which has been 
identified as a $200 billion opportunity, as I noted in my 
written testimony. But we must act swiftly and efficiently to 
create a nationwide, fully coordinated effort to address energy 
storage at every level, with a portfolio that's balanced across 
need and across laboratories and universities, and coordinated 
with industry. And the funding for this research must reflect 
the scope of our mission and the potential value of this 
technology to our national security, our economic future, and 
our environment.
    Lastly, we already have a model of success through DOE's 
Vehicle Technologies Program and EERE. A variety of research 
projects have been funded across the laboratory complex and 
coordinated with industry in a way that is resulting in 
commercialization of enabling storage technology for 
transportation applications. A comparable program can be and 
should be developed throughout the Department of Energy, with a 
focus on stationary energy storage systems. The seeds for such 
an effort are already coordinated through the Office of 
Electricity Delivery and Energy Reliability. Ultimately, 
success will require fully funded, long-term, national vision 
of a fully integrated system at every scale.
    I'd be pleased to answer any questions from the Committee. 
Again, thank you.
    Mr. Carnahan. Thank you, Doctor.
    [The prepared statement of Dr. Chamberlain follows:]
              Prepared Statement of Jeffrey P. Chamberlain
    It is widely recognized that the continued and increasing reliance 
on fossil fuels by the citizens, businesses, and government 
organizations in the U.S. is not sustainable over the long term. One 
concept that is gaining popularity among scientists and engineers, 
businessmen, and policymakers is that of integrating renewable energy 
generation into a distributed use model, in which sun and wind energy 
is converted into electricity and used locally, at scales from 
individual buildings up to and including communities that include both 
buildings for residential and business or government use.
    There are a wide variety of technologies and business models that 
are being considered to enable the adoption of an integrated, on-site 
energy generation and use model. Energy must be harnessed, either by 
solar cells and arrays, or by wind turbines, and then either inverted 
from DC to AC for immediate use, or stored for later inversion and use. 
``Smart grid'' technologies are also capable of being used to ensure 
efficient use of energy, and the individual buildings and communities 
must still be integrated effectively into the larger regional grid. 
Although there are significant complexities regarding the integration 
of the various required technologies, the attractive prospect of 
reducing overall energy consumption as well as significantly reducing 
the consumption of fossil fuels is driving both policy makers and 
businesses around the world to carefully examine and develop both the 
technologies and the business models needed to make on-site renewable 
energy generation and use a reality.
    Below is a simple diagram (figure 1), illustrating the essence of a 
Cornell project, ``CU Green,'' (http://www.news.cornell.edu/stories/
May08/cugreen.hawaii.aj.html) developed for an experimental setup in 
Hawaii in June 2008. Even in this simplistic illustration, one can see 
the importance both for new technology development, as well as the 
importance of integrating the technologies across the system.
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT


    This testimony focuses on one aspect of the variety of technologies 
needed to enable the adoption of on-site renewable energy integration: 
Energy Storage. In figure 1, outside of the battery in the PHEV, there 
is a notable lack of energy storage listed as a requirement for this 
microgrid environment. Taken from the European Union Microgrid Project, 
figure 2, below, shows in great detail the complexity and variety of 
energy storage technologies that can be used in on-site renewable 
energy generation. Note the wind and solar indicators in the lower 
left-hand corner, and how the energy can flow into various storage 
devices for end use. Of course, no single system will have this great 
number of energy storage devices, but this particular European project 
was set up to test the various technologies available on the market 
today.
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

The role of Energy Storage in on-site renewable energy generation.

    At its essence, the main role of energy storage in on-site 
renewable energy generation is to mitigate the intermittent nature of 
electricity generated by conversion of sun or wind energy. Power 
generated by coal-burning or nuclear plants is ramped up and down 
according to consumer demand. Such is not the case for either wind or 
solar energy conversion, and, in the case of on-site renewable energy 
generation without the ability to store energy, the consumer would be 
left only having useful electricity when there is either substantial 
wind or sun to convert to electricity. When an effective energy storage 
technology is integrated into the on-site generation system, 
electricity generated by the solar or wind conversion can be stored and 
used when the demands warrants its use.
    As storage technologies are adopted for on-site renewable 
generation, they will be used for other applications as well, thereby 
increasing the total value of both the investment into the systems' 
development and the value of the systems themselves. Energy storage 
systems that will be of use to the microgrid application can also be 
used for grid load management and as back-up power supplies for 
communities. If integrated to the grid properly, utilities will be able 
to use battery systems to store electricity generated during off-peak 
periods to supplement demand during high-peak usage. Likewise, such 
energy storage systems can also be used during power outages or during 
natural disasters to supply electricity when grid operation is 
interrupted.
    The table in figure 3, below, shows in detail the relative value of 
storage technologies in grid applications. This table is from an 
article by John Peterson, of Alt Energy Stocks, entitled ``Grid-Based 
Energy Storage; a $200B Opportunity.'' Peterson's estimates are based 
in great part on the 2010 Sandia report, entitled ``Energy Storage for 
the Electricity Grid: Benefits and Market Potential Assessment Guide; a 
Study for the DOE Energy Storage Systems Program,'' by Jim Eyer and 
Garth Corey, of Sandia.
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    The information presented in the table, and the extensive study by 
Eyer and Corey, show both the tremendous economic value of storage for 
the grid, and the wide array of valuable applications in the grid. The 
salient take-home points of the information in figure 3 are:

        1)  assuming adoption of energy storage technology onto the 
        future grid, the economic value of such technology is over 
        $200B

        2)  the value of storage technology for on-site renewable 
        generation (contained in rows 15, 16, and 17) are relatively 
        modest, but still in the billions of dollars

        3)  most research in the area of storage for the grid focuses 
        on on-grid applications, not off-grid (or tangent-grid) 
        applications as would be the case for storage for on-site 
        renewable energy generation.

Energy Storage R&D for transportation applications: useful for the 
                    grid?

    As the automotive industry moves from purely internal combustion 
propulsion to hybrid-electric, plug-in hybrid electric, and pure 
electric vehicles, businesses are commercializing new battery 
technologies that go beyond the standard lead-acid technology used by 
consumers today. OEMs have successfully integrated nickel-metal hydride 
(NiMH) battery systems into HEVs (e.g. Toyota Prius or Ford Escape 
Hybrid), and are beginning to integrate lithium ion batteries into some 
HEV applications as well (e.g. Johnson Controls-Saft lithium ion 
batteries for Mercedes' S400 hybrid). For PHEV and EV applications, 
OEMs are adopting a wide variety of lithium ion battery technologies. 
Notable and timely examples include the Chevy Volt and the Nissan Leaf, 
both of which are entering the market at the end of 2010. Both cars 
contain advanced lithium ion battery packs for propulsion.
    Research at the DOE National Laboratories, and around the world, is 
ongoing in a race to develop the best performing lithium ion battery 
technology, to enable full penetration of PHEV and EV automobiles into 
the consumer market by decreasing cost and improving the performance of 
the battery systems, in terms of how much energy can be safely stored 
and retrieved in a given battery.
    For over 40 years, Argonne has been a leader in performing research 
into electrochemical energy storage systems. Notably, this research has 
focused in the last 10-14 years on lithium ion battery systems, 
including basic materials research and development, systems and cost 
modeling, diagnostics of materials and systems, and performance testing 
of electrochemical cells and complete systems. Argonne also evaluates 
the performance of hybrid electric systems in vehicles as a complete 
system.
    DOE's battery research programs managed by the Office of Vehicle 
Technologies in EERE span multiple national laboratories as well as 
universities and industry. Through DOE's programs, Argonne works in 
concert with Lawrence Berkeley National Laboratory, Sandia National 
Laboratory, Idaho National Laboratory, Brookhaven National Laboratory, 
the National Renewable Energy Laboratory, and Oak Ridge National 
Laboratory, as well as the Army Research Laboratory, NASA, and the Jet 
Propulsion Laboratory. Likewise, the National Laboratories involved in 
DOE's battery research programs interact directly with industry, from 
materials suppliers like Dow Chemical, DuPont, 3M and BASF, to battery 
manufacturers such as Johnson Controls, A123 and Ener1, to the OEMs 
(GM, Ford, Chrysler), through the U.S. Advanced Battery Consortium 
(USABC).
    The work performed by the group above has a primary focus on 
developing and testing new materials for advanced battery systems for 
use in transportation applications. Separately, DOE, though the Office 
of Electricity, has a variety of funded programs focused on enabling 
known technologies for use in a variety of stationary applications, 
mostly at megawatt scale.
    Many businesses are now working to determine the technical and 
financial potential for aftermarket use of these large car batteries, 
particularly for grid storage. The concept is that, 1) at the end of 
useful life in an automobile, a lithium ion battery still has the 
capability of storing energy, but not in a useful way for automobile 
propulsion, and 2) by extracting further value from the expensive 
battery system (currently between $5000 and $15,000), the upfront cost 
of the battery system can be offset, and in a way subsidized by the 
extraction of value at the end of its useful life in a car.
    A pertinent example (figure 4) of such an effort is being made by 
General Motors. GM has recently signed a Memorandum of Understanding 
with ABB Group, a Swiss-Swedish consortium, to investigate and quantify 
the value of a ``used'' Chevy Volt battery system for application on 
the grid (Energy Matters, September 22, 2010).
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    This serves merely as one example of how the automotive and battery 
industries are rapidly moving to determine if their automotive 
batteries can cross over for effective use in grid applications. In the 
U.S., A123 Systems (an MIT startup), Johnson Controls (world's largest 
battery maker), and Ener1 (an Indianapolis battery maker) are all 
working quickly to adapt their battery technologies either for direct 
use on the grid, or for after-market use, when the effective life in an 
automobile ends. Outside the U.S., Panasonic-Sanyo, GS Yuasa, and NEC 
in Japan, and LG Chem, Samsung, and SK in Korea, as well as Lishen and 
ATL in China are all working quickly toward adapting their vehicle-use 
batteries for grid application.
    In all likelihood, advanced batteries intended originally for use 
in automotive applications will have use and value in grid 
applications, including for individual buildings. However, this current 
focus by advance battery manufacturers and OEMs exposes the primary 
weakness in the U.S.'s R&D portfolio aimed at filling the energy 
storage need for on-site renewable electricity generation: the PHEV and 
EV battery systems were developed specifically for transportation 
applications, where a primary driver in the technology development is 
energy density, both gravimetric and volumetric. Batteries for electric 
cars must be as lightweight and small as possible. However, for on-
site, stationary applications, the size and weight of the battery 
system is of significantly less importance. Instead, efficiency and 
cost are the primary drivers for stationary applications.

Energy Storage research for stationary applications is primarily 
                    focused on demonstration projects

    As the U.S. endeavors toward net-zero communities, including on-
site renewable energy generation and energy storage, the question 
arises: what is the best technology for storing energy locally, for 
individual buildings or small communities?
    To answer this question, DOE's Office of Energy Efficiency and 
Renewable Energy and DOE's Office of Electricity have sponsored 
multiple projects across the laboratory complex and directly with 
industry. For example, as a result of Energy Independence and Security 
Act of 2007, DOE formed the National Laboratory Collaborative on 
Building Technologies, in which Argonne, Lawrence Berkeley, NREL, Oak 
Ridge, and Pacific Northwest National Laboratory are to work together 
on building efficiency improvements, including investigating energy 
storage as part of the answer. A more direct example is the case in 
which DOE has funded American Electric Power in Ohio, to install at 
test a 25-kW lithium ion ``neighborhood'' battery to reduce strain on 
the grid during peak load demands. Likewise NEDO in Japan has sponsored 
similar demonstration projects that utilize known lithium ion and flow 
battery technologies for microgrid applications. Separately, DOE's 
Office of Electricity actively participates in the international 
cooperation known as Energy Conservation through Energy Storage, or 
ECES. European, North American, and Asian governmental offices 
participate in the activity.
    Figure 5 below (Gil Weigand, Oak Ridge, in Green Car Congress, May 
5, 2010) illustrates how on-site renewables generation will fit into an 
overall net-zero neighborhood architecture. Note that there are several 
places and needs for energy storage technology. One technology alone 
will not fill each of these needs.
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    In every example project described above, the primary objective 
seems to be to determine whether a known technology can be utilized for 
grid and microgrid applications. Technologies being tested and 
validated include lithium ion, lead acid, sodium sulfur thermal 
systems, pumped hydro, flywheel, ultra capacitor, sodium metal halide, 
and flow batteries. Until very recently, the primary focus around the 
world in energy storage for stationary applications has been an attempt 
to apply or adapt known energy storage technologies for these emerging 
applications. During the last several years, efforts have begun, to 
enable fundamental research on new materials and systems aimed 
specifically for use in stationary applications. These efforts are 
relatively small; this is where the largest gap exists that would 
prevent the most effective adoption of storage technology for on-site 
renewable energy generation.
    DOE's Office of Electricity has begun to fund small materials 
research projects at Sandia National Laboratory and Pacific Northwest 
National Laboratory, and DOE's ARPA-E has funded over 10 new high-risk, 
high-reward materials-based projects aimed specifically at stationary 
storage applications. One example is 24M technologies, a spin-out from 
A123, with Professor Yet-Ming Chiang, MIT, as a founding partner. This 
project aims to develop entire new battery systems for both 
transportation and grid applications, starting from fundamentally new 
developments in materials physics and chemistry.

Coordinated Research and Development can address the existing gap

    The opportunity before us today is to perform groundbreaking 
research to develop innovative, efficient, and low-cost energy storage 
technologies that will enable the most effective use of on-site 
renewables generation. The clear gap in our research in the U.S., and 
even across the globe, is that almost all materials research has been 
aimed either at transportation applications, or at megawatt-sized 
stationary applications.
    State of research in U.S. for stationary storage for buildings and 
small communities:

        -  there are already multiple programs

        -  focus is on adapting automotive technologies, and 
        integrating megawatt-scale technologies (e.g. pumped hydro)

        -  focus exists on integration technologies, modeling, 
        ``smart'' grid creation

        -  Lacking: direct work on new energy storage technologies

Europe's programs--same gap as U.S.
Asian programs--same gap as U.S.

    In both Europe and Asia, though, it appears there is a more 
advanced strategy for coordinating the effort with respect to storage.
    It is the opinion of the author that the best method for addressing 
the gaps described above is to combine a new strategic investment by 
DOE in research and development in the U.S. focused directly at the 
development of energy storage systems for buildings and small 
communities, and, importantly, to coordinate the research effort 
effectively with the resources already available to DOE. Specifically, 
the talent and skills needed to develop advanced energy storage 
technologies, from inception, to modeling and theory, through materials 
and systems development, and performance and full utilization testing, 
already reside in the DOE National Laboratory system. Also, there a 
both startups and large-cap businesses ready to commercialize any 
technology developed in the laboratories. If developed and managed 
properly, R&D funds could be utilized with great efficiency, if the 
various organizations worked in concert, collaborating toward a 
singular, well-defined mission. Further, a particular project on energy 
storage for on-site small-scale stationary applications could be 
incorporated into a larger, coordinated national effort at developing 
knowledge and technology for energy storage across a large variety of 
both stationary and portable applications.

                  Biography for Jeffrey P. Chamberlain
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

Department Head, Electrochemical Energy Storage
Energy Storage Major Initiative Leader

    Jeffrey Chamberlain is the Manager of the Battery Research 
Department in Argonne National Laboratory's Chemical Sciences and 
Engineering Division. The work in the battery department at Argonne 
spans from the basic materials science for discovering and designing 
new materials, to modeling new electrochemical systems, to engineering 
operating test cells, all the way to testing of materials, cells, and 
entire energy storage systems. The battery testing facilities are 
world-class, and serve as a lead lab for DOE in performance analysis 
for advanced batteries.
    Jeff also is the leader of the laboratory-wide Energy Storage 
Initiative. The work involved is coordinated into four research areas: 
Advanced Battery R&D, Process Engineering for pilot-scale studies of 
battery materials, Energy Storage studies for power grid management, 
and Energy Storage R&D in advanced power train systems.
    Prior to joining Argonne, Dr. Chamberlain performed industrial 
research at several companies, notably Cabot Microelectronics, Nalco, 
and Angus (purchased by Dow), focusing his work on the chemistry at the 
interface between suspended metal-oxide particles and their surrounding 
solutions. Products developed from Jeff's work in industry have been 
applied in semiconductor processing, coatings manufacture, and mineral 
processing.
    Dr. Chamberlain studied vacuum-based surface chemistry at the 
Georgia Institute of Technology, and received his Ph.D. in Physical 
Chemistry. Prior to his graduate studies at Georgia Tech, Jeff received 
his Bachelors of Science in Chemistry from Wake Forest University.

    Mr. Carnahan. And, finally, Ms. VanGeem.

 STATEMENT OF MARTHA G. VANGEEM, PRINCIPAL ENGINEER AND GROUP 
    MANAGER, BUILDING SCIENCE AND SUSTAINABILITY, CTL GROUP

    Ms. VanGeem. Thank you for this opportunity to testify 
before you today. I will be speaking to you on the genesis of 
the renewable-ready requirements and their advantages and 
disadvantages in the ASHRAE USGBC/IES Standard 189.1, the 
standard for the design of high-performance green buildings. 
I've been a member of this committee, responsible for drafting 
the language in the Standard, since its inception in 2006.
    However, today, I'm speaking for myself and not for ASHRAE 
or the Counsel.
    The intention of the renewable-ready provision in the 
Standard is to assure that building design includes a plan to 
accommodate future installations of common renewable energy 
systems, such as PV, solar, thermal, and wind. The renewable- 
ready requirements were appealing to the Committee because 
renewable energy is expensive and, therefore, less cost- 
effective when compared to other energy-saving measures 
required by the Standard. While cost-effectiveness was not a 
criteria for requirements in the Standard, the future usability 
of the Standard is somewhat dependent on practicality and 
economics.
    The Committee Members and the public had a spectrum of 
views on this issue, from not having a mandatory requirement, 
due to their cost, to mandating a portion of energy from all 
buildings be renewable. Those in favor of renewable energy 
requirements said they were in place in some European 
countries, and that the way to drive down cost is to mandate 
it. Furthermore, in order to meet the goal of net-zero energy 
buildings, on-site renewable energy will be necessary.
    Requiring a small amount now will cause designers to start 
incorporating on-site renewable energy systems, and experience 
will be gained. The renewable-ready requirements were included 
as a compromise provision. The basis of this was that, once a 
building is constructed, the future installation of renewable 
systems could be prohibitively expensive, even if the costs of 
the renewable systems decrease.
    Installation of these systems as a retrofit is more 
expensive if the initial building design did not account for 
the additional structural loads or did not provide readily 
available space for the renewable system, its pathways, 
conduit, and piping.
    In addition, the structure of the Standard lent itself to 
the renewable-ready requirement compared to a rating system 
such as LEED. In a rating system, it's straightforward to have 
a point that requires on-site renewable energy. The user of the 
rating system can then decide whether or not to implement on-
site renewable energy. It's the user's choice.
    In a standard written in mandatory language, such as 189.1, 
if on-site renewable energy is in the mandatory section, it's 
required for all buildings and is not a choice. Although the 
requirement was based on PV arrays on the roof, other methods 
of meeting the requirement include PV arrays within 
fenestration and on opaque walls, PV arrays on racks above 
parking or on window shades, solar-thermal hot water systems 
located on roofs or elsewhere on the site, or wind turbines 
designed for use on roofs or on the ground.
    Recognizing that some building projects do not have 
sufficient access to solar resources, an exception was added 
for buildings located in areas without a certain amount of 
annual solar energy for buildings or for buildings shaded by 
other buildings or structures, by hills, by mountains, or by 
trees. This exempts portions of Western Oregon and Washington, 
the upper Midwest, New England, and buildings on shaded sites.
    Some of the advantages or disadvantages of renewable- ready 
have been discussed. It is also challenging to design for a 
renewable energy system before that system is chosen.
    The requirement will encourage the least expensive 
renewable- ready pathways in infrastructure, and not 
necessarily the method that is most appropriate or cost-
effective for that building.
    Another disadvantage is that the term ``associated 
infrastructure'' in the Standard is not specifically defined. 
It's not clear how much detail needs to be included in the 
design or on the design drawings.
    Renewable-ready can be viewed as an interim solution. The 
189.1 Committee made a consensus decision on how far they could 
reach with a green building standard given the current state of 
renewable energy technologies, including their costs and 
designer awareness.
    The country's goal should be that the entire sunlit surface 
of all future buildings be a converter of sunlight to 
electricity or hot water.
    In summary, the renewable-ready portion in ASHRAE 189.1 is 
a compromise position between cost effectiveness and the 
ultimate goal of having on-site renewable energy in all 
buildings. Thank you.
    Mr. Carnahan. Thank you.
    [The prepared statement of Ms. VanGeem follows:]
                Prepared Statement of Martha G. VanGeem
    Thank you for this opportunity to testify before you today. I will 
be speaking to you on the subject of ``renewable ready.'' I will 
discuss the genesis of renewable-ready requirements of ANSI/ASHRAE/
USGBC/IES Standard 189.1-2009, Standard for the Design of High 
Performance Green Buildings, as well as its advantages and 
disadvantages.
    I have been a member of the American Society of Heating, 
Refrigerating, and Air-Conditioning Engineers (ASHRAE) and Standards 
Project Committee (SPC) \1\ 189.1 (the committee responsible for 
drafting the language in the standard) since its inception in 2006. I 
have been a member of ASHRAE since 1984 and have been involved in 
standards project committee work at ASHRAE since 1987. However, today I 
am speaking for myself and not for ASHRAE nor the SPC 189.1.
---------------------------------------------------------------------------
    \1\ The SPC became a Standing Standards Project Committee (SSPC) 
after the standard was published in early 2010. I was a member of SPC 
189.1 and am now a member of SSPC 189.1.

Renewable ready--What does this mean?

    ``Renewable ready'' in ASHRAE 189.1-2009 requires that the building 
site include provision for future installation of renewable energy 
systems. Specifically, the language from ASHRAE 189.1-2009 states:

         7.3.2 On-Site Renewable Energy Systems. Building projects 
        shall provide for the future installation of on-site renewable 
        energy systems with a minimum rating of 3.7 W/ft<SUP>2</SUP> or 
        13 Btu/h . ft<SUP>2</SUP> (40 W/m<SUP>2</SUP>) multiplied by 
        the total roof area in ft<SUP>2</SUP> (m<SUP>2</SUP>). Building 
        projects design shall show allocated space and pathways for 
        installation of on-site renewable energy systems and associated 
        infrastructure.

         Exception: Building projects that have an annual daily average 
        incident solar radiation available to a flat plate collector 
        oriented due south at an angle from horizontal equal to the 
        latitude of the collector location less than 4.0 kWh/m<SUP>2</SUP> 
        . day, accounting for existing buildings, permanent 
        infrastructure that is not part of the building project, 
        topography, or trees, are not required to provide for future 
        on-site renewable energy systems.
         ANSI/ASHRAE/USGBC/IES Standard 189.1-2009, Standard for the 
        Design of High-Performance Green Buildings Except Low-Rise 
        Residential Buildings, American Society of Heating, 
        Refrigerating and Air-Conditioning Engineers, Inc. 
        (www.ashrae.org).

    The intent of this provision is to assure that the building design 
includes a plan to accommodate future installations of common renewable 
energy systems such as photovoltaic, solar thermal, or wind. By 
definition in ASHRAE 189.1-2009, on-site renewable energy systems also 
include geothermal energy but not the energy associated with ground-
source heat pumps. The requirement is for the building design documents 
to indicate the space, pathways, conduit, and piping for the planned 
future renewable energy system.

Why a requirement for renewable ready and not a renewable energy 
                    requirement?

    The Compromise. The renewable ready requirements were appealing to 
the committee because renewable energy is expensive and therefore less 
cost effective when compared to other energy-saving measures required 
by the standard. While cost-effectiveness was not a criteria for 
requirements in the standard, the future usability of the standard is 
somewhat dependent on practicality and economics. The committee members 
and the participating public\2\ had a spectrum of views on this issue--
from mandating that a portion of energy from all buildings be renewable 
to not having a mandatory requirement due to the cost of these systems. 
The renewable-ready requirements were included as a compromise 
position.
---------------------------------------------------------------------------
    \2\ The committee before publication had up to 34 members with some 
being added and removed at various times. The meetings of the committee 
were open to the public. Four public review drafts of the standard 
received over 2800 comments from interested parties.
---------------------------------------------------------------------------
    The basis of this compromise position was that once a building is 
constructed, the future installation of such systems could be 
prohibitively expensive even if the costs of the systems themselves 
decrease. Installation of these systems as a retrofit in an existing 
building is more expensive if the initial building design did not 
account for additional structural loads or did not provide readily 
available space for the renewable system and its pathways, conduit, and 
piping. Accounting for structural loads and providing space for these 
systems in initial building design reduces the cost compared to adding 
them to the building in the future. In addition, the capital costs of 
renewable systems are expected to decline as their use increases. Costs 
are anticipated to decrease due to production on a larger scale and 
technological improvements that are gained from mass scale production.
    Mandatory provisions versus a rating system. In addition, the 
structure of the standard, with mandatory, prescriptive, and 
performance requirements, lent itself to the renewable-ready 
requirement compared to a rating system such as LEED-NC.
    ASHRAE 189.1-2009 is written in mandatory language\3\ so that the 
requirements are clear and it can be adopted by building codes and used 
in design specifications. ASHRAE 189.1-2009 is currently a 
jurisdictional compliance option of the International Green 
Construction Code (IgCC) <SUP>TM</SUP>, which is a model code under 
development by the International Code Council (ICC) \4\. As a document 
in mandatory language, ASHRAE 189.1-2009 differs significantly from the 
LEED \5\ family of point-based rating systems wherein one or more 
points are achieved for implementing a measure. In point-based rating 
systems, any particular measure generally does not need to be 
implemented. Historically, the least expensive measures are implemented 
and more expensive measures are ignored.
---------------------------------------------------------------------------
    \3\ It is not a guide or guideline, which often contain advice, 
considerations, or background information. ASHRAE will soon publish a 
user's manual for ASHRAE 189.1-2009 with this type of guidance.
    \4\ www.iccsafe.org
    \5\ www.usgbc.org
---------------------------------------------------------------------------
    Conversely, codes or standards written in mandatory language 
generally have two paths. All projects must comply with either (1) all 
mandatory plus all prescriptive requirements (the prescriptive path), 
or (2) all mandatory plus all performance requirements (the performance 
path). The prescriptive path generally offers a simpler method of 
compliance with little or no calculations whereas the performance path 
often involves complex calculations.
    In a rating system, it is straightforward to have a point that 
requires on-site renewable energy requirements. The user of the rating 
system can then decide whether or not to implement on-site renewable 
energy; it is the user's choice.
    In a standard written in mandatory language, such as ASHRAE 189.1-
2009, the implications are different than in a rating system. If on-
site renewable energy is in the mandatory section of the standard, it 
is then required for all buildings complying with the standard and is 
not a choice. ASHRAE 189.1-2009 has a requirement in the prescriptive 
section 7.4.1.1 for on-site renewable energy systems (with an exception 
for shaded buildings) but no such requirement in the mandatory or 
performance sections.
    Previous unpublished versions. The 189.1 committee through ASHRAE 
released four drafts for public review. The 2nd public review draft 
included a mandatory requirement for on-site renewable energy power 
systems:

         7.3.2 On-site Renewable Energy Power Systems. Building 
        projects shall contain on-site renewable energy power systems 
        with an electrical rating not less than 1.0% of the service 
        overcurrent protection device rating. The rating of the on-site 
        renewable energy power system shall be the nameplate rating in 
        kVA (dc).

         Exceptions to 7.3.2:

                (a)  Building projects with an on-site solar water 
                heating system that provides 100% of the domestic hot 
                water needs or has a peak capacity equivalent to not 
                less than 2.5% of the service overcurrent protection 
                device rating for the building project. The system 
                shall be certified in accordance with SRCC OG-100.

                (b)  Building projects that demonstrate compliance 
                using the Performance Option in 7.5 and provide any 
                combination of energy cost and CO<INF>2</INF>e savings 
                achieving a minimum of 10.0% total.
                      ASHRAE Proposed Standard 189.1P, Standard for 
                the Design of High-Performance Green Buildings Except 
                Low-Rise Residential Buildings, Second Public Review, 
                February 2008, American Society of Heating, 
                Refrigerating and Air-Conditioning Engineers, Inc. 
                (www.ashrae.org).

    This required that (1) approximately 1% of the energy use of the 
building be renewable, (2) as an exception, approximately 2.5% of the 
energy use be solar-thermal (at the solar-thermal peak) or solar-
thermal provide all of the hot water needs, or (3) as an exception, the 
building had to save additional energy. In response to comments from 
the public reviews and a change in some of the members of the 
committee, the committee changed the language to the current language 
in the 2009 standard, previously cited.
    Although it must be recognized that each member of a committee 
votes yes or no for a particular reason that is generally not 
documented, the issues with the mandatory language from the 2nd public 
review were threefold.
    First, to many on the committee, the requirement for on-site 
renewable energy was a severe cost burden. These members expressed 
opinions that each dollar that could be invested in on-site renewable 
could be invested in other energy-saving measures that were much more 
cost-effective. Those in favor of mandatory renewable energy 
requirements expressed opinions that mandatory on-site renewable energy 
requirements were in place in some European countries and that the way 
to drive down costs of renewable energy is to mandate it. Once 
mandated, costs would come down due to volume efficiencies and 
technological gains as demand increased. Furthermore, in order to meet 
the goal of net-zero energy buildings, on-site renewable energy will be 
necessary. Therefore, requiring a small amount now will cause designers 
to start incorporating on-site renewable energy systems and experience 
will be gained.
    Second, the alternative requirement for 2.5% solar-thermal in the 
first exception seemed like a large amount for some buildings. Also, 
the requirement for 100% of the hot water demand seemed problematic for 
times when and locations where the solar-thermal has traditionally been 
required to have conventional back-up hot water.
    Third, the alternate requirement for increased energy savings in 
the second exception meant that a whole building energy analysis would 
need to be performed. Without this provision, the standard allowed a 
prescriptive path that did not require a whole building energy 
analysis. These analyses generally cost at least $30,000 and often 
considerably more. It also seemed burdensome to require these analyses 
for building projects that did not have adequate access to solar or 
wind resources--the most common sources of renewable energy.
    As a result, the committee developed the renewable-ready text in 
the mandatory section as a less-expensive, compromise position. Since 
the prescriptive section has requirements for on-site renewable energy 
(with an exception for shaded buildings), the only way to avoid using 
on-site renewable energy generation when using ASHRAE 189.1-2009 is to 
use the more complicated energy performance path.

More on what renewable ready requires

    The phrase ``renewable ready'' does not occur in the mandatory 
requirements in section 7.3.2 of ASHRAE 189.1-2009. To meet the 
mandatory requirement, provided above, the building design drawings 
must show allocated space, pathways, and associated infrastructure for 
generating electricity or solar-thermal of 3.7 W/ft<SUP>2</SUP>, as a 
minimum rating, multiplied by the roof area.
    Whereas the 2nd public review draft considered approximately 1% 
generation of energy from on-site renewables as sufficient, the 
requirement in ASHRAE 189.1-2009 is based on how many photovoltaic 
arrays could reasonably be placed on a roof. This was calculated by 
assuming that photovoltaic arrays generate approximately 8 to 10 W/
ft<SUP>2</SUP>, and that slightly less than 50% of the roof area is 
available for photovoltaic arrays, assuming the other 50% of the roof 
space is for pathways and mechanical equipment. Although the 
calculation is based on photovoltaic arrays on a roof, the renewable 
energy source can be placed anywhere on the site. For a one-story 
building, the 3.7 W/ft<SUP>2</SUP> requirement can be 30% or more of 
the energy use of the building. For some one-story buildings, the 
renewable-ready requirement is three times more than that required in 
the prescriptive path. ASHRAE is currently in the process of changing 
the renewable-ready requirement so that it does not exceed the 
requirement in the prescriptive path in section 7.4.1.1 of ASHRAE 
189.1-2009.
    Although the requirement was calculated based on photovoltaic 
arrays on the roof, other methods of meeting the renewable-ready 
requirement include provisions for:

        <bullet>  Photovoltaic arrays within fenestration and on opaque 
        walls, although these systems are generally not as efficient as 
        optimally oriented systems on a roof

        <bullet>  Arrays on racks above parking or on window shades

        <bullet>  Solar thermal hot water systems located on roofs or 
        elsewhere on the site

        <bullet>  Wind turbines designed for use on roofs or on the 
        ground

    The renewable-ready design for photovoltaic arrays, solar thermal 
hot water systems, and wind turbines must account for the additional 
structural loads of these systems. Solar-thermal systems require the 
design of associated tank(s) and piping between the collectors and the 
tanks. Wind turbines on roofs require the structural design of the 
building accommodate the appropriate loads and serviceability 
requirements, including lateral loads, torsion, and vibration.
    Pathways from the energy source to the electrical panel (or to the 
point of hot water use for solar-thermal) are required. For 
photovoltaic arrays, this requires identifying pathways for the 
conduits from the arrays to the inverter, and then from the inverter to 
the electrical panel. Shading of one portion of an array can lead to 
significant losses in power generation from other arrays when they are 
connected in series. Therefore, shade is an important consideration 
when designing a photovoltaic system.

Exception to the renewable-ready requirement

    Recognizing that some buildings projects do not have sufficient 
access to solar resources, an exception was added for buildings located 
in areas without specified amounts of annual solar energy and for 
buildings shaded by other buildings or structures, hills or mountains 
(topography), or trees. Specifically, it exempts building projects that 
have an annual daily average incident solar radiation, measured a 
specific way, of less than 4.0 kWh/m<SUP>2</SUP> . day. This exempts 
portions of western Oregon and Washington, the upper Midwest, and New 
England, as shown below.

Additional advantages and disadvantages

    In addition to the advantages and disadvantages of renewable-ready 
previously discussed, it is challenging to design for a renewable 
energy system before that system is chosen. The renewable-ready 
requirement will encourage the least expensive ``renewable ready'' 
pathways and infrastructure and not necessarily the renewable energy 
method that is most appropriate or cost effective for that building. 
Another disadvantage is that the term ``associated infrastructure'' in 
the standard is not specifically defined. It is not clear how much 
detail needs to be included in the design or on the design drawings.
    Renewable ready can be viewed as an interim solution. The 189.1 
committee made a determination on how far they could reach with a green 
building standard given the current state of renewable energy 
technologies--their costs, designer awareness, existing laws, and 
financial incentives. To meet the longer term objective of on-site 
energy generation, the U.S. government could support greater research 
in photovoltaic cells that can be applied/installed as the surface for 
all building materials, with the possible exception of vision glazing. 
The country's goal should be that the entire sunlit surface of all 
future buildings should be converting sunlight and daylight in general 
to power (e.g. electricity) or thermal energy (e.g. domestic water 
heating or swimming pool heating).
    The U.S. government could also require that all new federal 
buildings, as well as substantial remodels to existing buildings, have 
on-site renewable energy power generation. This percentage could be 
steadily increasing over time.
    In summary, the renewable-ready option in ASHRAE Standard 189.1-
2009 is a compromise between cost-effectiveness and the ultimate goal 
of having on-site renewable energy in all buildings.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                    Biography for Martha G. VanGeem
    Martha VanGeem is a principal engineer and manager of CTLGroup's 
Building Science and Sustainability Group. She serves as a project 
principal investigator and specialized in-house consultant in the areas 
of green buildings and infrastructure, energy efficiency, energy codes, 
thermal mass, mass concrete, and moisture migration. Since joining 
CTLGroup in 1982, her experience has included over 500 large and small 
consulting, testing, and research projects. Ms. VanGeem has 
investigated moisture problems and performed energy analyses for 
numerous concrete, steel and wood framed buildings. In the area of 
sustainability, Ms. VanGeem serves as principal investigator on LEED 
<SUP>TM</SUP> projects and others, and has developed environmental 
life-cycle inventories (LCIs) and life-cycle assessments (LCAs) of 
cement, concrete, and other construction products. Ms. VanGeem is a 
licensed professional engineer, a LEED <SUP>TM</SUP> Accredited 
Professional, and a Registered Energy Professional for the city of 
Chicago. She received her bachelor's degree of civil engineering from 
the University of Illinois-Urbana and her MBA from the University of 
Chicago. She is a member of many energy and green building standards 
committees including ASHRAE energy standards (SSPC 90.1 and SSPC 90.2), 
ASHRAE/USGBC/IES High Performance Green Building Standard (SSPC 189.1), 
the GBI Green Building Standards Energy and Resources Subcommittees, 
ACI 130, and ASTM E60. She presents on various aspects of green 
buildings on a regular basis, and has authored 93 articles and 
published reports. Two of her articles have won awards--the Charles C. 
Zollman Award from the Precast/Prestressed Concrete Institute in 2006 
and the F. Ross Brown Award from Construction Canada in 2005.

                               Discussion

    Mr. Carnahan. And I want to start. I'll recognize myself 
for five minutes to start, and then we'll switch back and forth 
between myself and Congresswoman Biggert.

                Economic Considerations and Job Creation

    I guess I want to focus a little bit on what Mr. Cheifetz's 
talked about with regard to impact and the economy. I think 
it's important. We all talk about so many benefits. We've heard 
about benefits to the kids in school, to the environment, the 
bottom line of companies. I guess the thing I want to ask--and 
I'll start with Mr. Cheifetz, since you make the point so 
well--the impact on the economy and jobs and local firms. We've 
seen lots of statistics about so many of the technologies and 
equipment that have been put in these high-performance 
buildings and pilots that are made by U.S. small companies. And 
the more we're encouraging the use of these products, the more 
telling those small companies are in their creating of jobs, 
and the multiplier effect of that. But I guess I want to ask 
every one of you to just focus on the job creation 
possibilities that are involved with many of these 
technologies, and how we'd be best to run that.
    Mr. Cheifetz. Thank you. Our view of it, and our 
experience, has been that these systems drive a lot of jobs in 
a lot of different areas. They drive direct construction jobs. 
What we're doing is that we're taking people who are now, let's 
say, underemployed in the construction sector, and whether it's 
retraining water well drillers to do geothermal, whether it's 
getting construction people back in the field to do work, these 
projects get people back to work and create new jobs, because 
we're talking about a new kind of energy infrastructure, and 
new skills and jobs are required. We've seen that with our own 
experience here in the Chicago area.
    At the same time, it pulls a lot of work from existing 
trades. The folks who do HVAC work are doing retrofits. All 
these things have an additive effect that is significant in 
terms of job creation. In addition, we create jobs in 
engineering and technology, as well, because as you heard, we 
invest a lot in our own folks to develop the instrumentation 
and systems that are needed. And then, as we enable other firms 
that we work with to get back to work and do more work, that 
just brings more people to the table. It seems that there's no 
question that we want and need these technologies. We've just 
been waiting to see how we can do it. As we unlock that door, 
we're going to see thousands, we think tens and tens of 
thousands of jobs, being created in rather short order.
    We're not talking about a new infrastructure that has to be 
put in place to transmit energy. We're not talking about 
something that has to be created over five or ten years. And 
we're not talking about systems that require long payback 
periods. The payback periods of the systems, especially with 
the American Recovery and Investment Act incentives, are now 
under five years. So, even the most risk-averse and capital-
constrained firms, whether public or private, see their way to 
make this investment in a very short term.
    Mr. Carnahan. Thank you. Start with Mr. Ostafi.
    Mr. Ostafi. I think one of the interesting things about 
renewable energy is that many of these systems are manufactured 
all over the world, I think the least of which is here in the 
United States. I mentioned, and other people on the panel here 
have mentioned, the manufacturing process of renewable energy. 
Let's take PV, for an example. If it could be optimized and 
made more efficient, could we possibly be manufacturing more 
solar panels here in the United States as opposed to being 
manufactured in China or elsewhere?
    I think the manufacturing process of PV is one of the 
reasons it makes it so expensive. So, if there are some 
technological breakthroughs that can allow us to make that 
process less expensive, bring more of those panel manufacturers 
here in the United States, I think that's an opportunity to 
create more jobs. I think you can take that argument and apply 
it towards wind turbines, curtain wall system facades, and many 
other things mentioned here today.
    But that's certainly an opportunity to bring more jobs 
here.
    On the installation and maintenance side, a lot of these 
systems require people with skills that don't necessarily 
translate from traditional mechanical and electrical and 
ventilation system opportunities. So, is there a way to train 
new workforce that specifically has knowledge for portable 
tanks or for wind turbines for solar thermal applications? So 
that they can verify commission and install those different 
systems here in the U.S. and create new jobs for our diverse 
new use of componentry?
    Mr. Carnahan. I see my time is up, so I'm going to 
recognize Congresswoman Biggert for five minutes.

             Technology Demonstration to Commercialization

    Mrs. Biggert. Thank you, Mr. Chairman.
    Just thinking back, and having been on the Science 
Committee since 1999, it's taken a while to get to this point 
where you're all here and we're hearing so much about the 
environment and the high-performance building, which is great. 
But, again, I'd like to know--well, I know we did the EPAct in 
2000--that was a bill in 2005, which really was looking at the 
alternatives of alternative energy and how we were going to do 
this. And I can remember having a meeting at Argonne with the 
then-Secretary Bodman and looking at the fuel cells and how big 
they were and saying, ``How soon can you get them small enough 
to, you know, fit in a car?'' And I think talking about the 
fuel cells and the stationary fuel cells was kind of like maybe 
we skipped that and we went right to vehicles and how to do 
that.
    And this is off story, but what can we do now to really 
move forward with this in this economy to really--what's 
happening why we aren't--you know, this is so important now 
that people, I think, realize in the school districts and 
people that are, you know, building a home are realizing they 
can do more, and the commercial buildings. But how do we get 
from the demonstration technology? You know, we always talk 
about, in the--so many of the companies that are starting, and 
they've got their research labs and universities or are 
developing themselves, but then they get to what we call the 
value gap. You know, the demonstration, but they can't quite 
push over to the commercialization of these technologies, and 
some of them go under because of lack of capital. So, how do we 
move from that to--and I don't know who wants to try and get 
into that, but----
    Dr. Chamberlain. I'll take a stab at that. That's a very 
big question. I think that's why we're all hesitating here. 
Thanks for that question.
    Coming from industry into the laboratory, I notice that 
same gap, and several of us notice that same gap; that valley 
of death that exists, particularly for high-technology products 
like the ones in this field, and also particularly when you 
look at the difficulty of the economy that we're in currently.
    My personal belief is, the answer is investing in a way 
that's sensible. And by that, what I mean, particularly coming 
from a laboratory perspective, is if Congress, through the 
Department of Energy, continues to invest in technologies like 
the ones described in the panel today, it can be done in a way 
that directly engages industry to shorten that gap, to bridge 
that valley of death, to encourage the collaboration directly 
with industry and the performance of R&D. That, in short, would 
be my answer to a number of ideas that are methods and vehicles 
that are contractual vehicles that are demonstrated to move 
high-tech R&D at Argonne and other labs and universities 
directly to industry through one-on-one collaborations.
    Mrs. Biggert. It was interesting what you said in your 
testimony, that we're really trying to use technology that was 
developed for something else to make it apply to something 
rather than starting with an idea and carrying it through for 
that particular need. How can we change that? I--you know, 
we've had the America COMPETES Act, and we passed that out of 
our Committee and out of the House, but it hasn't gone through 
the Senate, and probably will not this year as we start over 
again. That's, you know, where we really are looking at; the 
innovation and creativity that we need to do this.
    Mr. Cheifetz. If I may give it a shot.
    A few things, frankly, is that, whether you're public or 
private, decision-makers don't like risk and they don't like 
uncertainty. So I think it's great that this Committee and 
Subcommittee is developing a shared language and a shared 
vision, that people can start having confidence in going 
forward. And that's very important, because I hate to put it 
this way, but when it comes to business or the public, when 
mommy and daddy are fighting, everybody's paralyzed.
    So we need to know, as soon as possible, that we have 
enough of a consensus and a shared vision and the will to go 
forward year over year and decade after decade, if possible, to 
get us from here to there. It would help us with things like 
access to capital because, as you know, that's frozen up right 
now, and it's for that reason.
    So if we could develop a shared language that we could 
commit to that still allowed us to be faithful to our own 
principles, I don't see why that's not possible. If we could 
give the finance community an understanding that these are 
investments that we're serious about and that are safe and have 
good returns, and if we could identify some specific and 
realistic, pragmatic things that we can do in common to get 
things done and prove them out in short term to build our 
confidence, that would bring more capital to the market in, I 
think, a whole new way.
    So it's not a one-answer-fits-all, but I think it's a set 
of small things that we can do. We're in a dynamic now that's 
not moving, and sometimes very subtle things can make a very 
big difference. If you look at this panel, you've got a world-
class architectural firm, you have a true user representing 
schools across the country, you have people talking about 
storage technology--and we know that the ground is a leaky 
storage battery--and we have the evolution of standards right 
here at this one table. You have a microcosm of how we can make 
a difference and go forward. I think that's going to be 
required to really, kind of, crack the door open. And then, 
with your help, I'm sure we can go forward.
    Mrs. Biggert. Thank you.
    Okay. Ms. VanGeem.
    Ms. VanGeem. Well, coming from the codes and standards 
arena, I would say that you could continue to help push 
renewable requirements and energy codes and standards. All 
high-performance building requirements take methods that are 
available and not common and push them to be more common.
    And, as we heard, energy saved over the life of the school 
or the company can then be used to help that school do other 
investments, or help the company hire more people or do more 
research itself.
    So, the only other thing I could think of would be some 
sort of tax incentives or financial incentives for the 
buildings that do go ahead and do this large, initial cost; 
this would be helpful.
    Mrs. Biggert. It's interesting that, in 2005, there were 
those, but people didn't use them.
    Mr. Lopez.
    Mr. Lopez. Just from the applications that I've said, 
educating the end user is a key component, particularly when 
you're talking about--you know, speaking from the school 
segment. They represent a large segment of our community, and 
then I think as they become educated in the benefits to 
renewable resources in research and technology, by leveraging 
their combined power/buying power, will have an influence on 
R&D.
    You know, just small examples, I know the Illinois 
Department of Energy currently has a LEED for Schools project, 
and I think having that component, which combines energy 
efficiency with the educational segment, I think that also 
tends to drive our need, recognizing that schools want to be 
part of that, and the industry sees that, and they develop 
based on those needs.
    But just building on a small scale. We get to our high 
school, we were interested in using highly recycled content in 
our products, and the manufacturer that produced the brick 
block for our building didn't have that available at the time, 
but he went ahead and retooled his manufacturing process to 
incorporate a higher recycled content in his product, and we 
forwarded that and marketed that as part of his product.
    So I think end users, with their ability to leverage their 
combined resources, can make a difference on the R&D side, as 
well.

               Public Education and Community Engagement

    Mrs. Biggert. Just one follow-up to that, if I might.
    I would assume that you had a referendum. The school 
district?
    Mr. Lopez. Yes, we did.
    Mrs. Biggert. And that passed.
    Mr. Lopez. It did pass.
    Mrs. Biggert. The first time.
    Mr. Lopez. It passed the first time, with the highest 
margin the second time.
    Mrs. Biggert. So you educated--the end user would be the 
homeowners.
    Mr. Lopez. Correct. Again, as we went through the process, 
it was an educational component for everybody involved, because 
it was early 2000, and we were fairly new, as far as the 
community and the public. And, so, a big process of 
implementing green technology was to educate the public to a 
greener use, as well as the senior leadership administration.
    Mrs. Biggert. Well, you're very good at it. We were at your 
school.
    Mr. Lopez. Thank you.
    Mrs. Biggert. I know firsthand.
    I hand it back.
    Mr. Carnahan. Thank you.
    I want to follow up on that. So, when this was sold to the 
voters, part of that incorporated the new technologies in that 
campaign?
    Mr. Lopez. It was a component--or, I mean, there was a 
multifaceted campaign. It was obviously new in the area to 
build new. Part of that, though, was to demonstrate how we 
could develop new efficiently and effectively. And, again, the 
whole challenge brought about through the Design Committee--at 
the time, I was involved in the design end. We brought that to 
the owners of the community, that we were interested in 
pursuing something that was cutting edge in terms of applying 
technologies. And, so, it was a component of the entire cell of 
the referendum. I think maybe it was not very much aware, at 
all, of green technology like most communities at the time, 
and, so, there was an opportunity there to raise that awareness 
during the course of the design process.
    Mr. Carnahan. And I bet there are a lot of other 
communities that are thinking about this that would like to 
know how you did that. I know because, certainly, that can be 
the important part of getting community volume, which can make 
a big difference.
    Mr. Lopez. Absolutely. And, you know, you look at the--we 
continue to sell energy efficiency to our community. As I go 
around, I talk to the financial benefits and savings to the 
taxpayers. Essentially, they look at us as a consumer of their 
tax money, and the things we point out are actually savings. We 
have a sheet from year to year. Just simply last year, from 
2009 to the fiscal year 2010, we've seen a 30 percent savings 
in electric bills by employing new technology in our school 
district, and that sells well to our taxpayers.

                   Renewable-Ready Building Standard

    Mr. Carnahan. I want to ask the--Ms. VanGeem laid out the 
case for the renewable-ready standards, and I want to get the 
other panel members thoughts about that.
    Ms. VanGeem. So, actually, the renewable-ready is in the 
mandatory part of the standard. In the prescriptive part, 
you're actually required to use renewables, unless you're in 
one of these shaded areas or darker areas, areas with less 
solar--and then you have to use it, unless you're going to do 
the performance path, which requires a lot of calculations. And 
the same thing is in the IECC that just passed--the hearings 
were a week or so ago. The next version of that's going to 
require either renewable or more efficient equipment or some 
other options. And there's other state codes and municipal 
codes that do the same thing; that you either have to be 
renewable or do something else; such as save a lot more energy 
in the building.
    And, so, as we make those things in the options harder, 
renewable will become the easier choice, and I think that's 
where it's going.
    Mr. Carnahan. Other panel members on that?
    Mr. Cheifetz. Yeah. I think it's important, from our 
experience, that the standards and regulations be driven at 
least as much by the market than by other places. We've seen, 
even with things like LEED, that when there's a disconnection 
between the desire to come up with the right kind of 
prescriptive solution and the actual things, like energy 
efficiency in buildings, there can be a disconnect. They can 
also confuse the market, and what we need in the market is 
confidence, we need capacity, and we need to fix a fee 
affordable in terms of cost. And that's where I think we need 
to be more creative about how to develop these standards in a 
way that can instill that confidence and help create that 
capacity.
    One thing that we can do better, for instance, is we could 
utilize the national labs, I think, in a more effective way 
from the private sector, not only in terms of using and 
commercializing what they develop on the science side, but also 
getting them--having them help us vet and educate the world 
about--what are the real-world working solutions, and how they 
do work. So, instead of it being theoretical, take it down to 
practical applications, where the national labs would have a 
lot of authority and are believed as such by lots of people.
    If they could look at situations where these technologies 
have been deployed, evaluate them qualitatively, and then give 
their objective report on ``What has saved money? What's 
accessible? What's renewable-ready?'' Without having to re-
invent the whole world, we probably could start getting case 
studies in the marketplace rather quickly, and they won't have 
to be one size fits all. We could have many things, but the 
national labs, if they could, could, I think, help us a lot to 
educate and inform the market, and help companies like ours 
quite a bit.
    Dr. Chamberlain. Obviously, the last part I agree with, but 
the first part of your point I would strongly agree with. If 
the standards and needs in the long term teach the users and 
our government the long-term financial benefit, then there's a 
real purpose for the standards. Even though you know I'm a 
scientist, I would say I'm a capitalist at heart. So as long as 
it's correctly crafted to benefit the business, not only 
directly from the standards themselves, or policy, but also 
that it's recognized and put together in a way that, in the 
long term, it really does educate the user as to the long-term 
benefit financially.
    Mr. Lopez. Just to the point of some standards--we'll need 
standards as the basis for introducing the rules. I agree with 
the statements that it's important to have the standards 
reflect the use of renewable technologies. I do think they 
shouldn't be too prescriptive. I like the concept of where 
states are going towards requiring, let's say, a LEED silver 
certification for new construction in new schools, and I think, 
again, that reflects on the interest of having public funds 
going towards something that's a very sustainable investment.
    But being too prescriptive, saying exactly what needs to be 
done, doesn't allow the flexibility for the design committee to 
come up with different alternatives, and sometimes even more 
creative alternatives, to what can be applied to a particular 
situation.

                       Renewable-Ready Buildings

    Mr. Ostafi. I would just like to add, I think, from a 
design community perspective, to this day, we still have many 
clients that want renewable energy systems integrated into 
their buildings, and, for a myriad of reasons that we have 
discussed today, they don't get incorporated today, but they 
still want that ability to plug into renewable energy later. 
And I think providing renewable-ready standards for projects 
built today makes a tremendous amount of sense, because the 
last thing we want ten years from now, when renewable energy 
systems become less expensive to manufacture, less expensive to 
install, the last thing we want are a bunch of buildings which 
are obsolete, that cannot incorporate them into their existing 
infrastructure.
    So I think it makes a tremendous amount of sense, as we 
think ahead towards net-zero buildings, which there's a big 
push towards their greenhouse gas emission inventories. I think 
we need buildings built today that are renewable-ready for 
tomorrow.
    Mr. Carnahan. Thank you all. I'll go back to Mrs. Biggert.

          The Most Effective Measures Toward Efficient Schools

    Mrs. Biggert. Thank you, Mr. Chairman.
    Mr. Lopez, you are, I think, very fortunate to have such a 
community and be able to build a school like that, but there's 
an awful lot of school districts that don't have the resources 
to institute a complete range of sustainable building measures 
and practices. But they must be able to do some things to lend 
them to becoming green. How can they do that? What are some of 
the highest leverage or lowest cost measures that we can take 
to improve building energy use and efficiency that somebody in 
the building could do.
    Mr. Lopez. Sure. So, with regards to non-renewables, those 
are more, ``Turn your lights off.'' Simple as that. I think a 
lot of what we encounter are behavioral issues, like how people 
go to work and expectations of having a room being more 
comfortable than they might have their own house. I think when 
they're home, they turn the heat down or they turn the lights 
off, but I think that behavior is not always prevalent in the 
public places or places of employment.
    And, so, kind of reteaching that or making people aware of 
the impact of that in the workforce and in the community is 
well met. Again, that's something we've done recently as part 
of our savings. I mentioned that we saw a 30 percent reduction 
in our utility bills this last year, and a large part was just 
behavioral change. Telling 2,500 employees that, you know, 
``We're going to make the building a little cooler in the 
winter, a little warmer in the summer. And, you know, we're 
going to ask that you--we're going to start turning lights off 
for you at certain times of the day. We're going to turn the 
computers off.''
    You know, some of these things, it's just change in 
behavior. So there's low or no cost to some of these 
implementations. And, as we go forward, part of this program 
that we have is to take those low-end group type of elements, 
try to find a substantial savings where we can adopt little 
cost, and I think, for a lot of school districts and a lot of 
municipalities, the employees are given initiatives such as 
that without a lot of cost upfront.
    Mrs. Biggert. What would be some obstacles to these 
measures?
    Mr. Lopez. Buy-in of the senior leadership.
    Mrs. Biggert. Uh-huh.
    Mr. Lopez. That's a key component. I'm sure a lot of school 
districts, municipalities, a lot of commercial buildings, a lot 
employ these types of things, but if you don't have a senior 
leadership or the senior administration on board with that, 
it's difficult to implement some of these features.
    And, so, that's sort of a process that's part of the--
what's important to the processes is, backing the education 
component, is making the senior leadership or senior 
administration aware of some of the advantages of these types 
of elements. And I think money speaks when people start to hear 
the benefits that we derive from energy efficiency. It gets 
their attention.
    We've taken the show on the road, so to speak, with 
identifying energy opportunities as part of that written packet 
that you have. And you can see there's a lot of different areas 
where we're able to save money; simple things, like putting 
frequency drives on motors, looking at more efficient 
mechanical equipment. All these things behind us really save a 
substantial amount of money, and they don't always cost a lot 
of money upfront. There's a lot of room out there to do things 
before large capital investments, and that's part of the 
message we're trying to get out, is to know how to do things at 
low cost or no cost.

                       Social-Behavioral Factors

    Mrs. Biggert. Mr. Ostafi, you emphasized in your testimony 
the human factor, the behavioral factors in a building design 
such as the use of lights and windows or opening windows. 
Somebody like the big buildings here in Chicago or wherever, 
you can't open them. Will that change, or what are those kind 
of factors?
    Mr. Ostafi. I would like to think that that will change. 
The reason why many high-rise buildings, for example, do not 
have operable windows is because the building itself is heated 
and cooled through a central system that takes care of the 
whole building at once and tries to maintain a sort of even-
keel temperature and humidity in the building at all times.
    There's also a pressure differential issue that comes into 
play in high-rise buildings that sometimes prohibits the use of 
opening windows, because the pressure differential between the 
outside atmosphere and the inside atmosphere become very 
different.
    Mrs. Biggert. I think that there is a new building in 
Chicago, The Legacy, that's being built that will have windows 
that open.
    Mr. Ostafi. I think that there are ways to make it happen. 
You have to rethink the way we heat and cool large buildings. 
We need more sophisticated sensors and measurements and 
verification systems throughout buildings that can constantly 
take the pressure and the humidity levels and temperature at 
all times in the building in various locations.
    If we apply more of a zone or a systems type of look at the 
way we heat and cool individual spaces, that could introduce 
natural ventilation into buildings more. But I think, to get to 
your earlier point of the human factor, when we design 
buildings--engineers and architects--we rely on a lot of 
information that, quite frankly, is outdated. We think that 
people will open windows when it's 70 to 72 degrees outside and 
60 percent humidity--you know, the perfect, ideal, human 
temperature conditions--and what we're learning, as I 
articulated earlier--is that people open windows in much more 
extremes than that. In fact, at night, when it's cool.
    So I think what I was getting to earlier was a lot of more 
current research needs to be done about what is truly 
comfortable for humans and in today's standards and in 
different environments and different regions across the U.S., 
because I think that the window of opportunity, no pun 
intended, is open. Ventilated buildings are much broader than 
what we're currently using today.
    Mrs. Biggert. Thank you. I give back.

                Curtain Wall Systems and Exterior Glass

    Mr. Carnahan. Thank you.
    I wanted to go back to Mr. Ostafi. You had mentioned in 
your written testimony, and oral, as well, the need for 
research in the area of curtain wall systems or exterior glass 
for buildings. Who is really doing the cutting-edge research in 
that right now, and can you describe some of those 
technologies?
    Mr. Ostafi. Much to our own chagrin, the Swiss are doing 
the most innovative products in that regard, and Europe, and I 
would say that's true for a lot of the systems that we're 
talking about today. A lot of renewable energy systems are much 
more efficient than what we're utilizing here in the United 
States exists in Europe, and they've been used for decades, 
since the '80s. What is causing that leap of that technology to 
be incorporated into the United States manufacturing and our 
own products? I don't have the answer to that. Maybe some other 
panelists do.
    What I was articulating about curtain wall systems earlier 
is a product that is available in Europe, and my point was that 
curtain wall systems, glass facades are the worst violator of 
thermal conductivity in a building, yet we like glass because 
it allows us to view and brings in natural light; all the 
qualitative aspects of being in spaces.
    So some of the innovative technologies that I see happening 
in other countries are curtain wall systems which are able to, 
through phase-change properties, absorb solar gain when it's 
not needed and able to transmit so they're gaining through a 
glass wall when it is needed. And there are ways to sort of 
regulate how that transfer of energy happens through a window 
system. There are solar-optic window systems that mitigate 
direct light coming into buildings which cause glare, which, 
again, is an uncomfortable human factor.
    So there are these technologies and systems that certainly 
exist and are in use, but just not cost-effective to 
incorporate in the United States.
    Mr. Carnahan. I know, even, there's a St. Louis-based, 
small company that has actual window shades to do some of that 
in maybe a more low-tech----
    Mr. Ostafi. Yes.
    Mr. Carnahan. --way, but I'd be interested to hear from any 
of the other panel members about their experience or knowledge 
about those kinds of systems.
    Ms. VanGeem. I think----
    Mr. Carnahan. Ms. VanGeem.
    Ms. VanGeem. Yes. I think that, as you travel abroad, or as 
I've traveled abroad, I notice that in Europe and in China and 
other places, each person really takes this whole concept of 
saving energy personally, and I don't know if it's because 
their disposable income is lower or what, but I agree that 
we've seen studies that 50 percent of energy use is behavioral, 
as he stated.
    And I do want to emphasize that these all-glass facades are 
some of the biggest energy hogs. And, before you asked the 
question, I was going to say that, you know, we can control the 
day-lighting just by opening and shutting the curtains and 
different things that are behavioral that we don't do in this 
country.
    And, so, you can limit the amount of glazing to 20 to 30 
percent of the window-to-wall ratio and still get enough 
daylight harvest area where you can use controls to reduce your 
lighting. So you don't need this hundred percent glass facade; 
you can use 20 to 30 percent glass, and then get enough day-
lighting that you can turn off the lights.
    Mr. Carnahan. Any others?
    Mr. Ostafi. I would just add, you mentioned sort of what we 
would call passive strategies, Congressman Carnahan, and that 
are low-tech solutions to some of these problems. And we're 
looking at ways to incorporate portable panes as solar shading 
devices on the exterior of buildings.
    So we're constantly looking for ways for renewable energy 
sources to perform, sort of, double-duty. Can they harness 
energy and provide shading at the same time? Yes, they can, and 
we can do that. I think that's the challenge for us as 
scientists, engineers, planners, administrators, is to look at 
ways for renewable energy systems to perform double-duty, to 
perform capabilities of doing more than just what their face 
value is.
    Mr. Cheifetz. But we have to work on the double engine of 
market force and some regulation, because I think we've all had 
the experience of designing a beautifully efficient and also 
lovely building and have that all be value-engineered out when 
it comes down to the budget and getting the building built. And 
it often comes down to that issue, at the end, of people 
shaving money, and they're shaving, really, the wrong thing.
    We have to change their perception of what they are allowed 
and not allowed to do by their tenants, by their owners, by 
their purchasers, by their investors, to know that they're not 
allowed to do that anymore. Whether it's, you know, bad glass 
or inefficient heating systems or poor design, cutting corners 
is just unacceptable. And now that it's more difficult to build 
lower-quality things in a more demanding environment, that's 
helping, but it's just one of the things that we have to keep 
attention on, because, by itself, things sink down to the 
lowest common denominator in the market.
    Mr. Carnahan. Thank you.
    Mrs. Biggert.

                      Next Steps for Policy Makers

    Mrs. Biggert. Thank you.
    I guess that reminds me of just like prevention. You have 
prevention in health, where you're not going to get sick or 
delay something if you know you have a genetic disposition to 
something. So it's the same thing with prevention, is how you 
show, you know, the real, true savings that you're going to 
have after you put the money in upfront, and how long will it 
take, I think.
    What can we do, as policymakers, to move forward faster?
    I know Congressman Carnahan and I have a bill that has been 
introduced to really showcase the federal buildings, to show 
energy efficiency, and, of course, that's turning off the 
lights, but that can lead to a lot more than that. And we have 
a bill for the Personnel Training Act, which was to provide 
federal workers with the know-how to maintain and to really 
sustain high-performance buildings. I don't know whether it's 
going to go, but hopefully. It's also in the Senate, so I think 
that the Senate has--it's passed the Senate, so hopefully we 
will be able to move that forward.
    But I don't know if you know anything about the bill; if 
it's a good policy or what other policies--there's, you know, a 
few other bills that are out there that we're working on. But 
how can we move forward, or what would you see that as?
    Mr. Lopez. Well, I mean, speaking from an engineer's point 
of view, the market deployment is important to cost. I think 
making these technologies readily available in the market is 
important, because I think the community is ready to implement 
these. As I mentioned and you've heard up here before, cost is 
preventing a lot of us from doing that.
    We recently took advantage of a lot of grant opportunities, 
and the State of Illinois has offered a lot of nice grants, 
matching grants for funding these type of programs. And it's 
actually allowing us to do things that we would not otherwise 
be able to do.
    For example, we're going to put up a new chiller plant at 
one of our schools with a 50 percent match grant from the 
state, and that's also allowed us to do a little bit more than 
just put in a chiller plant. We're looking at ice generation/
ice storage technology as a part of that.
    So, by reducing our cost by maybe 50 percent, and these 
other grant components, too, as we brought it to the CEO, 
reducing our upfront cost allows us to maybe explore some even 
more innovative approaches to what we want to do. Helping us 
get our costs down has a significant impact to how we move 
forward.
    Mrs. Biggert. Glad to see the State of Illinois is funding 
some of that right now.
    Mr. Lopez. Yeah.
    Mrs. Biggert. Yes.
    Ms. VanGeem. So, as I said in my written statement, that, 
as far as federal policy, one thing that the government could 
do would be to mandate that all federal buildings--new federal 
buildings or major retrofits--use renewable energy.
    And the concept is just to use a small percentage; you'd 
get one percent, or something like that, so that we can see 
what systems work best and are most cost effective. It doesn't 
have to be, something like ten percent, which is actually what 
the 189 standard comes out to for most buildings.
    So that's what I would recommend.
    Mr. Cheifetz. From a policy perspective, it would be 
interesting to see you try to help the utilities stay or become 
more responsive to these issues instead of saying one thing and 
doing another. It would be useful to look at basic regulations 
when it comes to building and environmental safety issues, 
including water safety, across the board so it's not different 
every time you step into another county or jurisdiction.
    It would be interesting to see you develop a more clear 
conversation about things like federal guarantees. Everything 
from the SBA, who, although they try to do the right thing, 
have problems at the local level. The banks not knowing exactly 
if they are in conformance and not knowing if they can lend 
more. So there are many small things. Take as an example the 
education sector, which, by itself, if a non-profit's going to 
take advantage of the ARRA incentives, that suggests that one 
could put together power purchase agreements and energy supply 
agreements similar to what's been done in other sectors already 
and make those systems available on an energy savings basis to 
institutions of learning. That's still an area where that's not 
enough understanding, even among large financial institutions, 
and they don't have the appetite for looking at things on a 
pooled basis, project to project.
    So, again, if we could develop a set of qualitative 
standards working in concert with the labs and other people--I 
don't know if, from a policy perspective, you can do anything 
to short-circuit what sometimes happens when we're trying to do 
the right thing--but we have a bureaucratic situation where it 
has trouble doing it. So policy, and you create teams that try 
to break through those issues. But those are the types of 
things we'd like to see.

         Geothermal Power and DOE Buildings Technology Program

    Mrs. Biggert. You said in your testimony that you weren't 
clear how--it wasn't clear how well the relocation of the 
geothermal R&D activities to the DOE Buildings Technology 
Programs. Could you expound on that?
    Mr. Cheifetz. Sure. I'm sure we're not the only renewable 
energy that has problems finding a home. Ours is particularly 
interesting because geothermal is often thought of as being 
geothermal power producing electricity, a hot-rock geothermal. 
And a ground-source geothermal hasn't gotten the same attention 
in the place where the Geothermal Program was. Now it's in 
Buildings, which pays a lot of attention to buildings 
themselves.
    So, if you're talking, for instance, about developing 
breakthroughs, specialized building equipment to make it less 
expensive to get this infrastructure built in this country, it 
would make sense to have that in the Geothermal program. 
However, when it comes to what we really do, which is design a 
system that combines the building with the ground, that would 
probably more properly be in Buildings, but Buildings is 
interested now singularly in emerging technologies and not so 
much in things that they think of as heat pumps, which I think 
I also mentioned. As long as we keep thinking of this renewable 
technology as wells, heat pumps, and loops, it's going to be 
doomed to get understanding of what its potential is.
    So I'm not saying we have to form something new. I think 
that the onus is more on us to reach out to those departments 
and have more conversations and try to begin some more kinds of 
initiatives so they can understand what we're doing and what's 
possible. It may be helpful for you to help that dialogue go 
forward as a result of some of the hearings we're doing. I 
think that would be very useful. So we're caught in a funny 
place, but, certainly, there's a way to get something done with 
something as straightforward, pragmatic, obvious, and needed as 
our little technology that can be deployed everywhere at a very 
good return on investment according to the DOE itself.
    Mrs. Biggert. I give back.

         Vehicle and Stationary Battery Storage Programs at DOE

    Mr. Carnahan. Thank you.
    I want to turn to Dr. Chamberlain, to ask you to expand on 
your vision as what the stationary battery storage R&D program 
ought to look like. We, by most counts, have a pretty 
successful vehicle battery program. What part of that Vehicle 
Technologies Program could be incorporated, or are they so 
different that they really should just be standalone entities? 
Can you kind of give us your vision of what that ought to 
ideally look like? You know, take advantage of what 
advancements have already been in the vehicle arena, but we 
could really kick off the stationary research.
    Dr. Chamberlain. I can comment on that. Thank you for the 
question. In the area of vehicle technologies, energy storage 
for transportation purposes, the research across the Argonne 
laboratory complex and our international laboratory, Lawrence 
Berkeley, are the two heat labs in this area. Their work runs 
across the spectrum from very basic research from theoretical 
physics of solid state materials up through inventing new 
materials--understanding and inventing new materials in the lab 
scale with gram quantities, to incorporating those in the small 
cells and testing them, to working directly with industry to 
make larger quality and quantity materials--or, improved 
quality and larger quantity materials for actual testing in 
true devices.
    And, at Argonne, Argonne is the DOE lab for testing for 
performance of vehicle batteries from around the world--the 
technology from around the world. Similarly, Sandia does abuse 
testing, so they have the kind of bunkers available for 
actually destroying and exploding batteries and seeing what 
happens during the most catastrophic type of event. And, at 
Idaho National Laboratory, they actually do in-vehicle seat 
testing.
    So the comparison I would make is, in the Vehicle 
Technologies Program, energy storage research across the labs 
and at universities, we do span the entire spectrum from the 
very basic to the full-out, applied, and testing full systems. 
By comparison, with regards to stationary storage, right now, 
we're only focused on that far end of the spectrum, this 
testing validation. As a country, we're relying almost wholly 
on companies to develop new technologies or to implement 
existing technology for stationary storage.
    So, the very fundamental studies, the very basic studies of 
how to store energy, whether that's electrochemical or 
geothermal, Congresswoman Biggert mentioned earlier that all 
the work that went into hydrogen energy storage from the 
Vehicle Technology's perspective were last at A+. You could 
also store energy in the form of hydrogen. You could convert 
energy from wind and solar back into converting water to 
hydrogen for use in generating electricity to charge a car in 
your home or to charge your home.
    So, the point is, that entire spectrum of research from 
basic to applied in stationary energy storage does not exist 
today in the scope of what's funded out of the Department of 
Energy. For the most part, it's focused, because it's a small 
program, on implementation. So that's a lack.
    And, to your other part of your question, What could we 
capitalize on in the other vehicle technologies programs around 
the country to enable, say, a more expedited beginning of a new 
program in stationary storage? The answer is that the brains 
already exist. The electrochemists and the physicists that 
think a lot about charge transfer and how to structure a nano 
material to get an ion and an electron in and out of a 
material, that brain power already exists in the lab. The 
ability to test and validate technology already exists in the 
lab. The only gates that need to be opened are to open those 
minds in a way of actively funding and having the wherewithal 
in the political will for long-term investment, to fund the 
kind of research dedicated toward looking at new systems that 
would absolutely not work for a transportation-related 
application, but may be highly effective for a stationary one.
    Does that answer the question that you were asking?
    Mr. Carnahan. Mostly. I guess what I'm looking for--And 
that's good that, sort of, the brains and labs and conceptual 
part of that exists. And, I guess, as a practical matter, does 
it make sense to have those be two separate entities, or is 
that something that could continue in the same program; really 
looking at those two different models, the stationary and the 
vehicle----
    Dr. Chamberlain. Yeah, that's a good----
    Mr. Carnahan. --implementation.
    Dr. Chamberlain. That is a good question. I don't speak for 
my friends at DOE, but the way I phrase it often is that the 
folks in the Office of Electricity Delivery and Energy 
Reliability would love to fund the basic research, in my 
opinion. They just don't have the funding, as compared to the 
folks in the Office of Vehicle Technologies, who have a very 
healthy program, but it's not in the scope of their mission to 
worry about any technology that can't be used for 
transportation-related research.
    So, coming from the funding perspective, I think it has to 
come from separate sources. But, in terms of the actual work, I 
would say, on the basic side, it does make sense to have the 
same physicists, chemists, and engineers looking at it from a 
charged transport perspective. But, from the technology 
development side, it may or may not reside in the same pocket.
    Mr. Carnahan. Because I think we all see the promise of the 
science, but, you know, we're dealing with limited funding 
sources, and does it make sense to expand their mission to look 
beyond the Vehicle Program when we're in the era of limited 
resources? And would that be the more cost-effective way for us 
to do that.
    Dr. Chamberlain. Well, that is a good question. I'll offer 
my personal opinion. I think that's why we're here, I guess. I 
can't represent all of Argonne, but I believe the answer is, 
yes, it does make sense. Almost all of the questions, I think, 
center around one central theme, in my opinion, at a higher 
level, and that is, ``Does Congress, as a whole unit, or the 
federal government, as a unit, have the political will to make 
a long-term investment.''
    We've heard a lot of versions of what I'm saying here now, 
both in your questions and on the panel. And I guess my advice 
or plea would be that now is absolutely the right time to do 
that. Even in the time of economic difficulty we're facing, if 
you look carefully at what's happening in Japan, Korea, China, 
and Europe, and the investments being made there, it's a little 
frightening, when you consider the automotive industry and the 
electronics industry; how all of our manufacturing jobs have 
moved to Asia. Right now, there happens to be a perfect storm 
brewing for us to actually manufacture these technologies on 
American soil. And, rather than talk about the possible 
negatives of not jumping on the opportunity early--and, again, 
I'm speaking strictly from an energy storage perspective--even 
though energy storage is an ancillary need of this overall on-
site renewables question that you're asking, the estimations of 
the value, just from a gross domestic product perspective of 
energy storage for stationary, range in the low tens to high 
tens of billions of dollars, and that's strictly for making and 
selling batteries. It doesn't even include the overall 
efficiency gains an average consumer or a business would 
achieve by having a green building that would put storage as a 
piece of it.
    And then, if you come at the calculation from a different 
perspective and look at kilowatt hours generated in a plant, 
say in making batteries, or you could also look at it from 
overall sales revenue of a given company, there are public 
companies out there where you could do these calculations. The 
market possibilities are in the tens of billions. Already there 
are examples, like MicroSun Technologies here in Lisle, 
Illinois, which is a tens-of-millions-of-dollar revenue company 
versus the Johnson Controls staff, which is a multi-billion 
dollar, multi-national company.
    You can see that companies that earn, like A123 in 
Massachusetts, in the tens of millions--low tens of millions 
already employ hundreds and low thousands of both factory 
workers and high-end engineering- and scientist-type jobs; 
high, million-dollar jobs. Because you've just projected, on 
the back of the envelope, to the potential for the market, 
you're looking at an enormous infrastructure for jobs being 
created in this country.
    I've gone off tangent a little bit from your question.
    Mr. Carnahan. That's okay. And I've gone over time, and I 
just want to--I'd like to be able to follow up this kind of 
information that I think my colleague and I would love to have 
in hand to be able to continue this conversation with our 
colleagues, to help make the case for some of this continued 
research, and do we need to do a separate program or expand the 
mission of some of these existing programs.
    And I give it to you.

             Siting Energy Storage R&D in Federal Agencies

    Mrs. Biggert. I guess, following up on that, if there were 
funding, and we don't know which on-site storage technology has 
the most potential to be deployed, maybe you know that, but 
would this type of work be best suited for the Office of 
Science in the Department of Energy, or are you talking about, 
from those two to the electricity or transportation performance 
arena? I'm not sure whether, you know, you would divide it that 
way or whether there should be something set up in DOE just for 
this.
    Dr. Chamberlain. That's a very good question. As you both 
already know, there are energy storage technologies and 
research being funded out of a variety of offices in the 
Department of Energy, from ARPA-E to the Office of Science to 
the EFRCs, from EERE and Vehicle Technologies group, and OE. So 
there's a wide variety of established funding vehicles.
    My personal belief is, it is a combination of those 
varieties of funding vehicles wherein the value of the overall 
program is identified. And I think it's up to the laboratories 
to actually integrate those programs, to have healthy 
relationships with industry, whether it's the power grid 
operators or the OEMs that make vehicles in Michigan. It is up 
to the labs to pull together the variety of sources of funding 
and make sense of them in a way that we can deliver it quickly 
and efficiently in the industry.
    Now, obviously, I've dodged your question, but----
    Mrs. Biggert. A lot of people do.
    Dr. Chamberlain. --in this particular case, I'll go ahead 
and go out on a limb and say that the opportunity is now to 
deliver technologies. Coming from industry, I can tell you that 
there is enough research and knowledge out there now to focus 
on the more applied side.
    From industry, I can tell you, stepping into the National 
Lab, everything we do--we say we're variants on the laboratory 
from basic to applied. In industry, research would tell you 
it's all basic. Compared to what they do in industry, what we 
do in the Lab is basic, and that's as it should be.
    But my real point is, the opportunity for us today is to 
focus on the applied work that would be required to very 
rapidly deliver technologies to industries, say, in the next 
three to ten years as opposed to the next ten to twenty years. 
But I would still say the corporate balance, across the Office 
of Science and in the applied offices, would be a valuable 
thing.

                        Research Prioritization

    Mrs. Biggert. The batteries and the energy storage is, I 
think, in focus right now. So I think you're right; the 
opportunity, you know, is there. We need to seize it. But so 
many times it comes back to, well, do we need a DOE or an 
outside organization or somebody to do a systemic assessment 
and prioritize the research? Now, this happened with nuclear, 
and I--to me--I was really working on that, and we had the 
opportunity to look at Ginna, and all of a sudden, ``Well, 
there has to be this systemic assessment.'' And then everything 
folded, and there's not--nothing is moving forward right now, 
which I think is a tragedy. This is something long-term we need 
to do, too.
    But is a systemic assessment necessary, or should it be?
    I mean, I hope that we can do it in theory and get it done, 
but everybody brings this up.
    Dr. Chamberlain. I think, yes, but I also think that our 
department's been moving very quickly in the last six months to 
do some of those assessments. Some reports already exist.
    I refer to some in my written testimony, but I think I 
would say yes, but let's start with the reports that have 
already been written by those that are tightly wound with the 
grid operators and the idea of smart grid and what it means to 
the energy storage question with regard to where we're heading; 
grid both for on-site renewables and overall grid storage.
    I think a lot of the information already exists, and I 
would start there before we even think about putting a panel 
together to answer those questions.
    Ms. VanGeem. I would tend to agree with Dr. Chamberlain. 
There are a lot of NREL and EPA and DOE reports out about the 
concern of lessons learned with different case studies and 
things. And I do want to emphasize the need for the storage. 
One of the NREL reports said that one of the times we need 
renewable energy most is when, on the hot days, the sun goes 
behind the clouds. And, so, we need the storage.
    And then, the other thing we need is this whole concept of 
renewables, especially if the PVs are DC-powered. And, so, you 
know, how do we get that to AC? And I think there are enough 
reports out there that we know those needs, and you can just 
follow through with them.
    Mrs. Biggert. I guess I was just considering, well, you 
know, we need somebody to bring all those together.
    Ms. VanGeem. Yeah. But it's--right. We may just need 
someone to bring it together, but I don't think you need to 
start over. Right.
    Mrs. Biggert. I give back.
    [Discussion held off the record.]

                     Encouraging Market Development

    Mr. Carnahan. I wanted to get back to, I guess, what the 
federal government's role could be in moving forward as the 
largest owner of office space, renter, operator, using the size 
and the capacity to really help building the market. And I 
think some of that can be done with our practices, whether it's 
the way we look at building new buildings, looking at the life-
cycle costs upfront so we're not just, you know, finding a 
building that costs X. When we know if we're looking at the 
life-cycle cost, that's always going to come out better, and 
it's going to help our technologies.
    I guess other things that I want to just kind of open to 
the panel, things that you think that we can do in terms of how 
we operate our federal government building inventory. It could 
help, really, build the marketplace and drive this market, but 
it will also help grow the private sector in what they're 
doing. And I'll just start from this end, and we'll go across.
    Mr. Ostafi. Sure. Thank you for that question.
    Actually, I believe the reality is the federal government 
is doing a lot right now, actually. Their requirements and 
mandates exceed ASHRAE standards by, I think, 20 percent or so, 
in terms of the energy performance of GSA office buildings. In 
fact, our firm is working on an office building in Denver for 
the federal courthouse, the Byron Rogers Building, and that 
group of constituents--the owners, and operators, and 
maintenance folks of that building--want that building to work 
towards being a net-zero building. And we're seeing this across 
other GSA office buildings, as well. And the reality is, it 
doesn't cost a lot more money to make a building perform 30 
percent better than the current ASHRAE standards. It doesn't. 
And our bigger clients are figuring that out, finding that out, 
and pushing the design community to take it to the next level.
    So I actually applaud what the federal government is doing, 
but I would say there are still loopholes in some of the 
federal energy management plans that say to constituents and 
operators of a building, ``If it doesn't make financial sense, 
don't do it.'' I think we just have to mandate that they do it, 
and I love the idea proposed earlier that we mandate a certain 
percentage of renewable-energy integration into those 
buildings, because that doesn't exist today. I think one 
percent is too low. I think it should be three to four to five 
percent. Because, for office buildings, solar energy, for 
example, can produce a lot of artificial lighting, can help a 
lot of those systems in a building operate more efficiently at 
a simple payback time period.
    Mr. Carnahan. Mr. Lopez.
    Mr. Lopez. I like your question to the extent that it seems 
to be similar to the argument I'm making, that we can take a 
public entity, like our school systems now in the country, 
which represent--and I don't know the number, but it's got to 
be several billion square feet of space of buildings throughout 
the country, but take that and leverage it.
    Also, I'm hearing that the research community seems to be 
advanced to a point where they're willing to deploy a lot of 
these technologies, and are able to deploy them. I think 
connecting that to the actual marketplace, I think, from the 
design community and from the end user, there's a willingness 
there to start to implement these technologies.
    The biggest obstacle I do see is still the cost of some of 
these, and applying them, particularly dealing with the taxing 
bodies and funds of that sort, where people do look at first 
cost versus long-term cost. And, unfortunately, that's part of 
the education; showing people what the return on investment is 
on anything that we purchase. But part of what helps that 
return investment is, a lot of times, being able to tap into 
public money grants, funds. When we look at solar opportunities 
and wind opportunities, they're just not there in terms of the 
financial. But to see that, you know, an entity could, whether 
state or federal, make available funds to reduce those first 
costs, then the return on investment would be much more 
desirable, and it makes a project a go as opposed to a not-go.
    So I see the financial need to provide the financing or the 
granting of funds for marketplace projects as significant. It 
would have significant impact.
    Mr. Carnahan. Thank you. I know a lot of school districts 
are going to be looking at yours as an example----
    Mr. Lopez. Thank you.
    Mr. Carnahan. --in this evolution.
    Mr. Cheifetz.
    Mr. Cheifetz. Yes. And thanks for the question. First, I'd 
say set the bar very high. In keeping with what you've heard, 
let's not do something that we'll only have one chance to do, 
and it's not as good as it can be. In fact, set the bar so high 
that it forces all your supply chain to look at more 
innovative, smaller companies, ways of doing business 
differently than we usually do in that sector, because, 
typically, when you present something like this, it's the 
bigger companies, the established players that will do the 
work, and, usually, they're not the most innovative or cost-
effective providers, if the truth be told.
    So I'd say, in addition to the basic mandate, mandate a 
higher quality of outcome. In fact, make the whole thing 
outcomes-based from the top to the bottom. Higher standards, 
but also outcomes in terms of payback, in terms of quality, in 
terms of accountability, in terms of long-term life-cycle 
reporting so that it doesn't happen, and then it goes away. And 
let's use this as a laboratory to figure out how to improve 
everything beyond the federal governments' buildings and use it 
as a great example of how to do it.
    I think, often, we don't achieve that as a goal. In fact, 
it's sometimes the example of doing things in a less cost-
effective, more bureaucratic way. So I'd say very high 
standards forces the kind of tough work, forces your supply 
chain to do things a little differently, be more innovative, be 
more accountable, and be more outcome-based.
    Mr. Carnahan. Thank you.
    Dr. Chamberlain.
    Dr. Chamberlain. I guess I would answer the question with a 
question that may be embarrassingly naive. We have standards 
for efficiency for vehicles, and we set goals for those, for 
the automotive companies. Is it too simplistic to try do that 
for new or retrofitted buildings? I know it's a significantly 
more complex question, but I would think, thinking locally, 
we're building buildings and retrofitting buildings at Argonne; 
federal buildings. Why isn't there--maybe there already is--a 
standard measurement of efficiency that needs to be achieved? 
So, I guess what I'm talking about is something simple, just 
setting a target and mandating that target.
    Ms. VanGeem. So I think that there are targets. They're 
either in the form of a prescriptive requirement or an energy 
use impacts-type thing, so your question is exactly where I'm 
coming from. You could mandate that all federal buildings have 
one percent renewables or up to ten percent or even higher. If 
it's one or two stories, you could probably go to 20 to 30 
percent.
    And the goal should be that the entire sunlit portion of 
the building, except maybe some windows used for day-lighting, 
should be either PV or solar thermal so that you're using the 
whole building shell to generate energy, and I need to figure 
out a way to work the geothermal in there. But I think that 
everything's out there that you need. And, so, just by using 
federal buildings as an example, you could do this.
    Mr. Lopez. I think that----
    Mr. Carnahan. Yes.
    Mr. Lopez. --part of the answer is that the mindset is on 
non-renewable technology right now. I think the standards in 
the other departments--designers, users--try to achieve that 
through non-renewables. We say, ``How can we put in more 
efficient equipment? How can we slow down the motors on 
equipment?''
    So it's still--but it's still relying on non-renewables. I 
think the mindset needs to change as to how you make that jump 
from doing what we do every day to looking at a solar-panel 
infrastructure and wind-generated landscapes and things like 
that.
    Ms. VanGeem. Well, we need both, and the standards are 
getting--the standards are 30 to 40 percent more efficient than 
they were in 2004. But you need both; you need the jump in the 
non-renewables and the renewables to ever begin to approach net 
zero, which is the goal.
    Mr. Carnahan. Okay. Very good. Thank you all. I'm going 
to--do you have another round?

               American Competitiveness and Job Creation

    Mrs. Biggert. I don't really have a question. I think just 
to close, unless a question comes out of it.
    Going back to, we were talking about, you know, public 
policy and America competing with other countries, and it is 
something that we really have to focus on; you know, the 
gathering storm with a national heading that Dr. Augustine 
talks so much about, and how there's a renewable energy 
council, and he's on the board, as well as Bill Gates and them. 
I think this is something that--and I've been to one of their 
meetings, and I think that this is something that we really 
have to face, is that we have to have the creativity and 
innovation to compete in the global economy. And this is--I 
wanted to talk about why the other countries are moving 
forward. And the timing is really bad, obviously, with the 
economy as such, and I know that it's going to be very, very 
difficult for funding for some of this. And, to me, the 
creativity and innovation sciences is the most important thing 
next to national defense, because this is the only way that 
we're going to be able to create new jobs. You know, we're no 
longer just a manufacturing country. We have a lot of 
technology, but we have to have the technology to stay ahead of 
other countries, and our labs do a great job, our universities 
and industry, yet we face so many barriers that maybe we've 
created, as well as just, you know, the actual economy. So this 
is something.
    I want to go out and write up about that--about this 
hearing that we've had today, because I think you've all 
brought up so many points of importance of what you're doing 
and how that benefits our country, but it also benefits, you 
know, the economy and what we're really working on right now. 
So, if you have any ideas, be sure, you know, to let us know, 
because what we've--for years, I would go into schools and talk 
to kids. I started where I asked, you know, what did they want 
to do when they grew up. And, for a while, it was, ``Be Michael 
Jordan.'' So that dates me, as far as--but that was it. But 
then it was the president, and, now, so many of the kids really 
want to be engineers and scientists. And, so, we really have to 
tap into that, because our science and math is not at all good, 
and we're having reverse grade ranges. We've had, you know, the 
foreign students coming here. Now they're going home instead of 
staying here, too.
    So there's so much to be done, and we're running ahead of 
opportunity for job creation and also, you know, helping so 
much with the environment. So I really applaud all of you. I 
just hope we can, you know, find the means to make this happen 
faster, and we won't if we don't participate. So, thank you all 
for coming.
    Mr. Cheifetz. How would it be best to let you know, as we 
say? Because a little bit of encouragement goes a long way.
    Mrs. Biggert. Okay.
    Mr. Cheifetz. In both directions.
    Mrs. Biggert. Well, maybe we'll have some more hearings on 
that, you know, to the Committee itself, in Washington. But, 
also, just if you have some ideas of what we should be looking 
at or ideas for more legislation or for whatever, I'll give you 
my card.
    Mr. Cheifetz. Very good. Thank you. I'll be glad to.
    Mr. Carnahan. I think you can see why I enjoy so much 
working with my colleague, Congresswoman Biggert. She not only 
knows the issues well, she has a great passion that she brings 
to this.
    And, so, again, just thank you.
    And to all the panelists, you really have given us some 
additional good ideas and inspiration. To me, it's one of the 
best Committees in Congress, to serve on Science and 
Technology, because it's the place where America has made such 
a difference historically; in science and technology. It's also 
the place where most of our economic growth has come from in 
this country. And we're in a place now, at kind of the 
crossroads, where we have an edge in some of these 
technologies, but we won't for long.
    And, so, it's an opportunity, I really think, we have to 
grasp, but it's more than that; it's a race that I think we can 
win. But it's also strategically important to competing 
globally and being able to make things here at home and to be 
self-sufficient. It just ties into so many things. And a lot of 
this does--not all of it. Not certain a lot of this is driven 
in the private sector, but I think our public policy has to be 
in line with this, has to work closely with the private sector, 
but it's also an opportunity where, frankly, there's been a 
good deal of bipartisan cooperation. We've seen, you know, far 
too much political bickering in Washington. This is an area 
where I think there's some good basis for bipartisan to work 
together, and something I think we can actually get done.

                                Closing

    So, again, just thanks to all of you. You've given us some 
good ideas. We welcome others, and we'll be sure you have our 
contact information. And we look forward to working with you in 
the months ahead. Thanks. And I just want to also thank Larry 
Collins and the Dirksen Courthouse for offering the courtroom 
here today.
    We're going to keep the Committee record open for two weeks 
for any additional statements from the members or to answer any 
follow-up questions we may ask of the witnesses.
    So, with that, we're going to wrap up the hearing, and we 
will be in touch.
    [Whereupon, at 11:30 a.m., the Subcommittee was adjourned.]

                                   <ALL>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
